<html>
<title> - [H.A.S.C. No. 115-57]Navy Readiness - Underlying Problems Associated With The USS Fitzgerald and USS John S. McCain</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                   
                         [H.A.S.C. No. 115-57]
 
                       NAVY READINESS--UNDERLYING

   PROBLEMS ASSOCIATED WITH THE USS FITZGERALD AND USS JOHN S. McCAIN

                               __________

                             JOINT HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON READINESS

                          meeting jointly with

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 7, 2017


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-560                    WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9cfbecf3dcffe9efe8f4f9f0ecb2fff3f1b2">[email&#160;protected]</a> 
                                     
  

                       SUBCOMMITTEE ON READINESS

                  JOE WILSON, South Carolina, Chairman

ROB BISHOP, Utah                     MADELEINE Z. BORDALLO, Guam
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
STEVE RUSSELL, Oklahoma              TULSI GABBARD, Hawaii
MIKE ROGERS, Alabama                 CAROL SHEA-PORTER, New Hampshire
VICKY HARTZLER, Missouri             A. DONALD McEACHIN, Virginia
ELISE M. STEFANIK, New York          SALUD O. CARBAJAL, California
MARTHA McSALLY, Arizona, Vice Chair  ANTHONY G. BROWN, Maryland
SCOTT DesJARLAIS, Tennessee          STEPHANIE N. MURPHY, Florida
TRENT KELLY, Mississippi             RO KHANNA, California
MIKE GALLAGHER, Wisconsin
                Margaret Dean, Professional Staff Member
                Brian Garrett, Professional Staff Member
                           Mike Gancio, Clerk

                                 ------                                

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                 ROBERT J. WITTMAN, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
VICKY HARTZLER, Missouri             SUSAN A. DAVIS, California
BRADLEY BYRNE, Alabama, Vice Chair   JAMES R. LANGEVIN, Rhode Island
SCOTT DesJARLAIS, Tennessee          MADELEINE Z. BORDALLO, Guam
MIKE GALLAGHER, Wisconsin            JOHN GARAMENDI, California
DUNCAN HUNTER, California            DONALD NORCROSS, New Jersey
PAUL COOK, California                SETH MOULTON, Massachusetts
JIM BRIDENSTINE, Oklahoma            COLLEEN HANABUSA, Hawaii
STEPHEN KNIGHT, California           A. DONALD McEACHIN, Virginia
RALPH LEE ABRAHAM, Louisiana
               David Sienicki, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                         Danielle Steitz, Clerk
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     2
Courtney, Hon. Joe, a Representative from Connecticut, Ranking 
  Member, Subcommittee on Seapower and Projection Forces.........     6
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Readiness......................................     1
Wittman, Hon. Robert J., a Representative from Virginia, 
  Chairman, Subcommittee on Seapower and Projection Forces.......     4

                               WITNESSES

Moran, ADM William F., USN, Vice Chief of Naval Operations, 
  United States Navy; and RADM Ronald A. Boxall, Director, 
  Surface Warfare (N96), United States Navy......................     8
Pendleton, John H., Director, Defense Force Structure and 
  Readiness Issues, U.S. Government Accountability Office........     8

                                APPENDIX

Prepared Statements:

    Moran, ADM William F., joint with RADM Ronald A. Boxall......    59
    Pendleton, John H............................................    66
    Wilson, Hon. Joe.............................................    57

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Gallagher................................................    97
    Mr. Hunter...................................................    97
    Mr. Norcross.................................................    97

Questions Submitted by Members Post Hearing:

    Mr. Courtney.................................................   101
    Mr. McEachin.................................................   101
    Mr. Wilson...................................................   101
                  
                  
                  
                  
                  NAVY READINESS--UNDERLYING PROBLEMS

                   ASSOCIATED WITH THE USS FITZGERALD

                         AND USS JOHN S. McCAIN

                              ----------                              

        House of Representatives, Committee on Armed 
            Services, Subcommittee on Readiness, Meeting 
            Jointly with the Subcommittee on Seapower and 
            Projection Forces, Washington, DC, Thursday, 
            September 7, 2017.

    The subcommittee met, pursuant to call, at 3:10 p.m., in 
room 2118, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the Subcommittee on Readiness) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
      SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Wilson. I call this joint hearing of the Subcommittees 
on Readiness and Seapower and Projection Forces of the House 
Armed Services Committee to order.
    We are here in honor and memory of the 7 USS Fitzgerald 
sailors: Shingo Douglass, Noe Hernandez, Ngoc Truong Huynh, 
Xavier Martin, Gary Rehm, Dakota Rigsby, Carlos Victor Sibayan; 
and the 10 USS John S. McCain sailors: Kevin Bushell, Dustin 
Doyon, Jacob Drake, Timothy Eckels, Charles Findley, John 
Hoagland, III, Corey Ingram, Abraham Lopez, Kenneth Smith, and 
Logan Palmer.
    And we are very grateful that today we have Ms. Rachel 
Eckels, the mother of Petty Officer Timothy Eckels, Jr., is 
here with us today. Ms. Eckels, we send to you our deepest 
sympathies and profound sorrow for your loss and appreciation 
for your son's service to our Nation.
    I want to welcome our members to today's hearing. And I 
want to especially recognize that we have with us the committee 
chairman, the Honorable Mac Thornberry. Chairman Thornberry has 
been the leader of our ongoing efforts to mitigate our military 
readiness challenges. And I want to thank him for his 
leadership and for being here today to hear about the 
challenges illuminated by the tragic collisions in the Pacific.
    I also want to send a warm welcome to Congresswoman 
Elizabeth Esty from Connecticut and Congressman Rodney Davis 
from Illinois.
    I ask unanimous consent that a member who is not a member 
of the Committee on the Armed Services be allowed to 
participate in today's hearing after all subcommittee members 
and then full committee members have had an opportunity to ask 
questions. Is there an objection?
    Without objection, such members will be recognized at the 
appropriate time for 5 minutes.
    As we begin today's unclassified hearing on ``Navy 
Readiness--Underlying Problems Associated with the USS 
Fitzgerald and the USS John S. McCain,'' I have no doubt that 
our Navy remains the most powerful in the world. But these 
recent tragic events only reinforce our committee's concerns 
about the depth of readiness challenges the Navy faces. I am 
especially concerned about the shortfalls in the force 
structure, and whether the sustained operational tempo of a 
reduced 277-ship Navy may have contributed to these events.
    I also believe that the first responsibility of the 
national government is to provide for the national security for 
our citizens to do for us what we cannot do for ourselves. And 
that is especially true of our sailors, soldiers, airmen, and 
Marines. Therefore, it is our responsibility as members of this 
subcommittee to continue to better understand the readiness 
situation and underlying problems of the United States Navy, 
and then for us to chart a course which best assists the 
Department of the Navy in correcting any deficiencies and 
shortfalls.
    We now ask the senior leaders of the U.S. Navy and 
Government Accountability Office here with us today to be 
candid and, in your best judgment, advise us on the underlying 
problems associated with the USS Fitzgerald and USS John S. 
McCain and how to recover from these tragic events.
    This afternoon we are honored to have with us Admiral Bill 
Moran, the Vice Chief of Naval Operations; Rear Admiral Robert 
Boxall, who is the Director of Surface Warfare; and Mr. John 
Pendleton, the Director of the Defense Force Structure and 
Readiness Issues of the U.S. [Government] Accountability 
Office.
    I would like to now turn to our ranking member, 
Congresswoman Madeleine Bordallo of Guam, for any remarks she 
may have.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 57.]

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE FROM GUAM, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Thank you very much, Mr. Chairman and 
Chairman Wittman, for agreeing to convene this timely hearing 
on the Navy readiness, particularly with regards to the 7th 
Fleet operations in the Indo-Asia-Pacific region. Chairman 
Wittman and I recently returned from Japan where we visited and 
met with Vice Admiral Sawyer, and saw the damage to the USS 
Fitzgerald firsthand.
    Thank you to our witnesses for joining us today. Admiral 
Moran and Boxall, I appreciated our meeting earlier this week, 
and I look forward to continuing our discussion.
    Mr. Pendleton, thank you as well for your time and your 
work on this subject, as it is critical in aiding our oversight 
mission on this committee.
    The recent mishaps with the USS Fitzgerald and the USS John 
S. McCain resulted not only in significant damage to the 
vessels, but also the tragic, tragic loss of life of 17 
American sailors. Earlier in the year, we saw two additional 
mishaps, avoidable, as I understand it, also involving surface 
ships assigned to the 7th Fleet. While investigations into the 
specific mishaps are still ongoing, and the Navy is in the 
midst of conducting two separate comprehensive reviews of 
surface fleet operations, I am interested to learn of the 
initial findings and the foundational challenges that need to 
be addressed to reverse the concerning trend that we are seeing 
with the readiness of our forward-deployed naval forces [FDNF].
    Specifically, I am interested to hear what steps may be 
taken to ensure appropriate time is allocated for crew training 
and ship maintenance in the forward-deployed naval forces 
model, and how the chain of command will be held accountable to 
ensure Navy standards are being met. In addition to the 
training and the maintenance time, I will be interested to hear 
how the Navy is investing in developing and utilizing next-
generation training systems to maximize the efficiency and the 
effectiveness of this time.
    This committee and the Navy's military and civilian 
leadership owe it to our sailors to learn from these incidents 
and take appropriate actions to ensure the contributing factors 
are properly addressed. Points have been raised about how the 
forward-deployed forces model in the Pacific AOR [area of 
responsibility] has both stressed existing resources and 
highlighted gaps and deficiency in the manning of our vessels, 
the training of our sailors, and the maintenance of the fleet. 
Understanding that a balance needs to be struck and a review of 
posture in the region is underway, let me note that I believe 
maintaining a forward presence in the Indo-Asia-Pacific is 
critical to our security in the region.
    Whether it be for deterrence, power projection, 
humanitarian assistance, bilateral and multilateral exercises, 
or a myriad of other critical missions, the Navy is able to 
rapidly react to contingencies only with forward-deployed 
forces. However, these missions and our credibility are 
undermined if we are not able to effectively manage and operate 
the fleet.
    The Navy's deployment of significant capabilities overseas 
didn't occur overnight. And the Pacific did not become a heavy 
traffic theater overnight. So I am concerned that the request 
for resources and the strategic prioritization of where to 
spend these resources has not properly reflected the 
operations, the maintenance, and the training needs of the 
fleet.
    Finally, I will conclude by stating that today's hearing 
and the Navy's ongoing investigations and reviews should be 
viewed as just the starting point. I hope that we will have a 
continuous dialogue between this committee and the Navy on the 
issues, the lessons learned, and specific actions that need to 
be taken to ensure the readiness of the surface fleet.
    I want to thank you, the witnesses, and I look forward to 
the discussion. And, Mr. Chairman, I yield back.
    Mr. Wilson. Thank you, Ranking Member Bordallo.
    We now will turn to the gentleman from Virginia and 
chairman of the Seapower and Projection Forces Subcommittee, 
Congressman Rob Wittman, for any remarks he may have.

 OPENING STATEMENT OF HON. ROBERT J. WITTMAN, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Wittman. Thank you, Chairman Wilson.
    I want to welcome Admiral Moran, Rear Admiral Boxall, and 
Mr. Pendleton, and I want to thank you all for attending our 
hearing on this tremendously important issue. I, again, want to 
thank Chairman Wilson for offering to hold this joint 
subcommittee hearing today. It is of essence that we get to the 
bottom of this in the interest of our Nation.
    I believe that we may arrive at some conclusions that 
require the joint efforts of both of our subcommittees, and I 
look forward to working with the gentleman from South Carolina 
to expeditiously resolve these potentially egregious underlying 
issues to our surface Navy forces.
    Before I proceed any further, I also want to recognize our 
special guest in the audience today, Ms. Rachel Eckels. Ms. 
Eckels' son, Petty Officer Timothy Eckels, Jr., lost his life 
onboard the USS McCain just a few weeks ago.
    Ms. Eckels, thank you for being here with us today and for 
the enormous sacrifice that you and your family have made for 
this country. We are here today to ensure that the Navy--yes.
    [Applause.]
    Mr. Wittman. We are here today to ensure that the Navy and 
Congress learns from these tragedies and makes the necessary 
changes. I want you to be assured that your son's life, given 
on behalf of this Nation, was not given in vain.
    Naval warfare is inherently dangerous. As we continue to 
review the recent collisions associated with the USS Fitzgerald 
and the USS John S. McCain, it is important to note that even 
in a benign environment, we send our sailors into precarious 
and oftentimes deadly situations. Our Nation asks much of our 
service members, and they never fail to deliver.
    I hope that today's hearing provides some positive steps 
forward to ensure that our sailors are provided the best 
training and the best ships to sustain their daily lives, and 
in time of war, prevail over our enemy. I think we can all 
agree that our Nation failed these 17 sailors and their 
families with these tragic collisions.
    Last week, I led a bipartisan congressional delegation with 
the gentlelady from Guam, Ms. Bordallo, to visit the 7th Fleet 
commander, Vice Admiral Sawyer, and the sailors homeported in 
Yokosuka, Japan. I was encouraged at their zeal and the overall 
tenacity of the fleet, even in the face of these difficult 
events. Nevertheless, I look forward to turning our attention 
to assess whether there are procedural issues that may have 
contributed to a degraded material and training readiness of 
our forces in the 7th Fleet.
    As the committee reviews the degraded state of the 7th 
Fleet, two things are painfully obvious. The material condition 
and operational readiness of the ships are significantly 
degraded and not acceptable. Of our large surface combatants, 
the majority of forward-deployed ships are not properly ready 
to perform their primary warfare areas. Overall, the negative 
trend lines associated with the operational readiness of our 
forward-deployed ships are deeply troubling. These negative 
training trends clearly contributed to the lack of seamanship 
evident onboard the USS John McCain and the USS Fitzgerald.
    As to the ships themselves, the material condition of the 
forward-deployed ships suffer as Navy prioritizes operational 
deployments over maintenance and modernization. This 
maintenance and training model places sailors at risk, and most 
likely contributed, in part, to the incidents that we have 
witnessed with the 7th Fleet.
    It is equally problematic that the Navy intends to increase 
the number of forward-deployed ships over the next few years 
with no increase to the maintenance capacity in Yokosuka, 
thereby increasing the risk to the fleet and our sailors. This 
increasing reliance on forward-deployed naval forces is a model 
that is not sustainable and needs to be significantly modified.
    We have also learned that many of the destroyers based out 
of Yokosuka are only supposed to be forward deployed for no 
more than 7 to 10 years. However, we know that the USS John S. 
McCain has been forward deployed to Japan for over 20 years. 
Further, the USS Fitzgerald, USS Curtis Wilbur, and USS Stethem 
have each been homeported in Yokosuka for well over 10 years.
    The Navy has proven that it cannot manage the requirements 
for forward-deployed ships in the 7th Fleet with a fleet of 
just 277 ships. The ships in Yokosuka have been outside the 
continental United States for too long, and consequently, their 
material condition is in an unacceptable state.
    I remain convinced that one of the long-term fixes of this 
problem is to increase the overall force structure and build 
the Navy that our Nation needs. A larger fleet would allow the 
Navy to place less strain on each available ship, which would 
reduce the chance that any sailor is placed in a high-risk 
environment.
    In the short term, I fully support the need to adequately 
fund training, and most importantly, provide the fleet the time 
it needs to complete required maintenance and training.
    I think there are a number of contributing factors that 
should be explored, including Navy training models, impacts 
associated with the cannibalization of other ship parts, 
overall funding requirements associated with ship maintenance, 
and the incredibly high operational tempo endured by the fleet, 
specifically in the 7th Fleet area of responsibility, and also 
the operational failures that have occurred with our surface 
fleet. Each of these areas deserves additional assessment.
    The forward-deployed Navy model is ripe with risk, and this 
risk will increase in the future. The Navy needs to offer an 
alternative model that meets the Nation's need at reduced risk 
to our sailors.
    I thank Chairman Wilson for working with the Seapower and 
Projection Forces Subcommittee on this important issue, and I 
yield back the balance of my time.
    Mr. Wilson. Thank you, Chairman Rob Wittman.
    And now for the gentleman from Connecticut and ranking 
member of the Seapower and Projection Forces Subcommittee, 
Congressman Joe Courtney, for his remarks.

     STATEMENT OF HON. JOE COURTNEY, A REPRESENTATIVE FROM 
   CONNECTICUT, RANKING MEMBER, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Courtney. Thank you, Mr. Chairman. And thank you to 
Admiral Moran, Rear Admiral Boxall, and Mr. Pendleton for your 
testimony today. And I would also like to recognize Ms. Eckels 
for being here today and putting a human face on the subject 
that we are talking about here today, and really representing 
the other families. That is an important contribution that is 
being made here today.
    So thank you, Ms. Eckels.
    The circumstances that bring us to today's hearing are 
painful and tragic. As our lead witness today, Admiral Moran, 
pointed out in his order to the Navy's Fleet Forces Command 
dated August 24, 2017, in the span of 65 days, 17 sailors were 
lost in ship collisions and accidents on naval vessels. These 
were not, as he pointed out, limited occurrences, but part of a 
disturbing trend of mishaps in the Asia-Pacific region that, 
since January, has involved the USS Antietam, the USS Lake 
Champlain, the USS Fitzgerald, and the McCain. To put that in 
perspective, these heartbreaking casualties are more than the 
number of service members that we have lost in the Afghanistan 
war zone in 2017.
    Two of those sailors are from my State of Connecticut: 
sonar technician second class Ngoc Truong Huynh of Watertown, 
Connecticut--and the Congressman from that community, 
Congresswoman Esty, is with us here today--and electronics 
technician second class, Dustin Doyon, from Suffield, 
Connecticut, in the northwestern portion of my district was 
lost onboard the USS John S. McCain. Their families and the 
entire State of Connecticut are mourning the loss of these two 
patriots, and are intensely watching the response of the Navy 
and Congress to fix this disturbing trend.
    Several reviews by the Navy and the Secretary of the Navy 
are underway right now to dig deep into this disturbing trend. 
I applaud those efforts, and I know I think I speak for all my 
colleagues today, that we expect the Navy to be fully 
transparent with our panels as these efforts move forward and 
that we will convene again as many times as needed to provide 
support to fix this problem.
    Indeed, article I, section 8, clause 13 of the U.S. 
Constitution is very clear. It is Congress's duty to, quote, 
``provide and maintain a Navy,'' which certainly means a Navy 
that is well-equipped, well-trained, and adequately manned.
    What does seem to be clear at this early stage is these 
incidents are a glaring manifestation of the sharply increased 
demand being placed on our forward-deployed Navy vessels, 
particularly in the Asia-Pacific region, and the declining 
readiness of these forces. We ask these forward-deployed ships 
to do difficult work, which is oftentimes not well understood 
by the public at large.
    For instance, prior to her collision, the USS McCain 
conducted a highly visible freedom of navigation operation in 
the South China Sea. Likewise, the Fitzgerald was a pivotal 
player in providing needed presence in response to Kim Jong-
un's recent threats and missile tests. Simply put, these are 
not the kinds of ships and crews that we can afford to lose to 
preventable mishaps.
    As my colleague Mr. Wittman correctly pointed out, one 
obvious response to this high operational tempo is to grow our 
fleet and shorten the backlog of repair and maintenance for the 
existing fleet to take the pressure off the heel-to-toe 
operations of our forward-deployed ships in places like 
Yokosuka, Japan, and Rota, Spain.
    These two committees, I would note, have pushed more 
aggressively on a bipartisan basis to add funding to ship 
construction and readiness than any other entity in the 
Congress. This year's House NDAA [National Defense 
Authorization Act] plussed up these accounts significantly 
above the White House's budget that was submitted last May, and 
passed with the biggest bipartisan vote since 2008. We will 
have more work to do to complete the 2018 process, and I am 
sure this hearing will increase the members' determination to 
get the best outcome possible.
    But today is not just about resources. It is also about 
whether Navy systems and policies need to be realigned to 
improve readiness. Unfortunately, concerns about systems and 
policies are not new. As the GAO [Government Accountability 
Office] has repeatedly reported over the last several years, 
and as our witness today will discuss, a growing number of our 
forward-deployed vessels are operating without the 
certifications expected of a ship heading out to deployment. 
Unfortunately, this trend has worsened since the last report in 
2015, and this needs to be corrected.
    Similarly, in 2010, the Navy conducted a review by Vice 
Admiral Phillip Balisle, which outlines shortfalls and concerns 
about surface force readiness that are strikingly relevant 
today in looking at these incidences in the larger state of 
Navy fleet readiness. One of his priority recommendations 
includes clarifying who in the chain of command specifically 
has the ultimate say in whether a ship is manned, trained, and 
equipped to the level needed to safely do their job before 
being sent out on deployment.
    To put it another way, the certification process which 
covers key competencies in seamanship, surface warfare, 
ballistic missile defense, to name just a few, need to be 
reviewed and approved by an accountable decisionmaker. 
Unfortunately, this recommendation raised by Vice Admiral 
Balisle has not been addressed in the 7 years since his report 
came out.
    We expect a lot from the Navy, and with good reason. Our 
sailors are the best in the world. And the sight of a U.S. Navy 
vessel in a foreign port or operating in international waters 
sends a powerful message of protection for a rules-based order 
in the maritime domain. And those sailors do what they need to 
do to keep the peace and the sea-lanes of the world's great 
oceans free and open. In return, our sailors and families 
should expect that their leaders, who send them out to sea, 
have done all they can to provide the tools, resources, and 
training they need to conduct their work safely and return 
safely.
    I hope today's hearing will focus on the steps that the 
Navy will take to fulfill that expectation and what it needs 
from us here in the Congress to get it done.
    Thank you. I yield back my time.
    Mr. Wilson. Thank you, Ranking Member Joe Courtney.
    Admiral Moran, we now turn to you for your opening remarks.

  STATEMENT OF ADM WILLIAM F. MORAN, USN, VICE CHIEF OF NAVAL 
  OPERATIONS, UNITED STATES NAVY; AND RADM RONALD A. BOXALL, 
      DIRECTOR, SURFACE WARFARE (N96), UNITED STATES NAVY

    Admiral Moran. Thank you, Mr. Chairman. I will be short.
    I want to be very clear that no matter the circumstances, 
the operating environment, or how strained our force might be, 
we should not and cannot have collisions at sea. Fundamental 
professional seamanship is the foundation for safe operations 
around the fleet. In all of the marvelous technology, the 
magnificent hardware that we put together on these ships, and 
the power of our weapons systems are meaningless without well-
trained, skilled, patriotic, and experienced sailors, who are 
well led.
    You have my promise that we will get to the bottom of these 
mishaps. We will leave no stone unturned. We will be 
accountable to you, to our sailors, and to the American public. 
Like you, our Navy stands with Ms. Rachel Eckels and all of our 
Navy families with hearts broken, but determined to investigate 
thoroughly all the facts to get at the root causes, to address 
contributing factors, and to learn so that we will become a 
better Navy at the end of this. We have an absolute 
responsibility to keep sailors safe from harm in peacetime, 
even as they prepare for war.
    Mr. Chairman, although we are 20 feet apart, there is no 
gap between what we need to do from here on out. Admiral Boxall 
and I look forward to your questions.
    [The joint prepared statement of Admiral Moran and Admiral 
Boxall can be found in the Appendix on page 59.]
    Mr. Wilson. Thank you very much, Admiral.
    We now turn to Mr. John Pendleton from the Government 
Accountability Office for your opening comments.

    STATEMENT OF JOHN H. PENDLETON, DIRECTOR, DEFENSE FORCE 
STRUCTURE AND READINESS ISSUES, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Pendleton. Thank you, Chairman Wilson, Chairman 
Wittman, Ranking Members Bordallo and Mr. Courtney, Chairman 
Thornberry. Thank you very much for having me here today to 
summarize GAO's past work on Navy readiness.
    Unfortunately, grim circumstances do bring us together. Mr. 
Chairman, I don't know what specifically caused the accidents, 
but I do know the Navy is caught between an unrelenting 
operational demand and a limited supply of ships.
    The Navy has been warning for some time that they have been 
keeping a pace that is unsustainable. Our work has confirmed 
the difficulties and our reports have shown it. However, our 
body of work has also spotlighted risk associated with the way 
the Navy is managing the demands on it. Some of these risks 
present significant challenges in the building blocks of 
readiness, training and manning, and maintenance.
    Just over 2 years ago, we published a report warning about 
the increased reliance of overseas basing of ships. In that 
report, we found that ships based in Japan did not have 
dedicated training periods like U.S.-based ships. Their 
aggressive deployment schedule gave the Navy more presence, it 
is true, but it came at cost, including detrimental effects on 
ship readiness.
    In fact, we were told that the overseas-based ships were so 
busy that they had to train on the margins, a term I had not 
heard before. And it was explained to me that meant that they 
had to squeeze training in when they could. Given the concerns, 
we recommended that the Navy carefully analyze the risks that 
were mounting, especially given the plan to increase overseas 
basing in the future to meet the demands.
    I think it is important to note that the Department of 
Defense, on behalf of the Navy, wrote the response to our 
report, and they concurred with the report and our 
recommendation, for the most part, and I think their response 
is instructive. And I am going to read a short passage, please.
    We assess the Navy is well aware of risk associated with 
increased reliance on overseas homeporting. The decision to 
accept these risks was ultimately based on the operational 
decision to provide increased presence to meet combatant 
commander requirements.
    Mr. Chairman, I fear this was a bad gamble, in retrospect. 
In preparing for this hearing, we followed up on that work and 
learned a couple of things that concerned us.
    First, the Navy had told us that they planned to implement 
a deployment schedule for the overseas ships that will allow 
dedicated training. As of the writing of--as of this hearing, 
they have not yet done that. They have a notional idea, but it 
has not yet been implemented.
    The second thing we learned was that training 
certifications--this is the way the Navy periodically 
determines that its crews are proficient in everything from 
seamanship, driving the ship, to warfare areas--were being 
allowed to expire at, frankly, an alarming rate. In 2015, 
looking just at the cruisers and destroyers, all of the 
certification areas, about 7 percent of those were expired. By 
late June of this year, that number was up to 37 percent 
expired, a more than fivefold increase.
    Manning has been a persistent challenge for the Navy. The 
Navy had a study in 2014 that indicated that sailors, on 
average, were working well over 108 hours a week. The Navy 
concluded at that time that this was unsustainable and could 
contribute to a poor safety culture. Maintenance is also taking 
longer and costing more. Due to the pace of operation, ship 
deployments have often been delayed. Although, Admiral Moran 
told me before the hearing that, you know, been keeping 
deployments shorter lately. But deployments have been extended, 
and then the ships have more problems when you bring them in. 
And the shipyards have trouble keeping pace for a number of 
reasons, which I think many of you are aware of.
    At this point, the lost operational days because of the 
maintenance delays number in the thousands. And having two 
destroyers out of service due to the recent mishaps is not 
going to help rebuild readiness. In fact, I think the Navy is 
treading water at this point in terms of readiness rebuilding.
    Mr. Chairman, GAO has made 11 practical recommendations to 
the Department of Defense to help guide the Navy and all the 
services toward improved readiness. The DOD [Department of 
Defense] and the Navy have concurred with our recommendations 
generally, but today have partially implemented only one. 
Several of the recommendations are crafted on--excuse me--are 
focused on crafting a comprehensive readiness rebuilding plan 
that balances resources with demands and is transparent about 
what it will cost and how long it will take.
    We have also made recommendations specific to the Navy that 
are directly relevant to today's conversations, particularly in 
the areas of analyzing the risk associated with overseas basing 
and reassessing the workload that sailors actually face, and 
using that to decide how many people to put on a crew.
    In closing, Mr. Chairman, I should acknowledge that we did 
all of this work because this committee requested that we do 
so. Thank you for your foresight, and we are honored to assist 
the committee in its oversight going forward. Thank you very 
much. I am happy to take any questions.
    [The prepared statement of Mr. Pendleton can be found in 
the Appendix on page 66.]
    Mr. Wilson. Thank you very much. And, Mr. Pendleton, we all 
appreciate the Government Accountability Office for your 
independent professionalism. As particularly important to me 
personally, I have a son serving in the U.S. Navy, and your 
recommendations are so important for the health and safety and 
protection of the American people.
    Additionally, I particularly appreciate that a report was 
presented as a report to congressional addressees on June 14, 
which highlighted the issues of readiness just 4 days before 
the Fitzgerald incident. And so your efforts just could not--
and your organization's efforts could not be more timely, and 
they are greatly appreciated by all of us.
    The GAO statement today that you have provided indicates 
that the expired training certification as provided by the 
afloat training group for cruisers and destroyers homeported in 
Japan had increased fivefold since the 2015 report, from 7 
percent expired to 37 percent expired in June of this year. 
Again, the month of the incident.
    Mr. Pendleton, can you explain the sharp trend of the 
training certifications since your report? What are the GAO's 
observations in what is happening with our forward-deployed 
forces?
    Mr. Pendleton. Sir, we updated that information in 
preparation for this hearing, so we have not been back out to 
talk to the fleet about them. We did gather that information 
when we did the work a couple of years ago, and we asked for it 
to be updated, and the Navy provided it.
    And when we looked at it, we saw that, again, if you 
imagine all of the 11 ships based in Japan, 3 cruisers and 8 
destroyers, and then 21 or -2 certification areas. When you 
look at--the ones that were red that they were expired, it had 
grown to 37 percent. Of all those little blocks, if you imagine 
it being red.
    Another thing that concerned us is there were specific 
areas that were even higher than 37 percent, and one of those 
was seamanship. Eight of the eleven ships had expired 
certifications for seamanship as of late June, and there were 
some other areas as well that were sharply lower than you would 
hope to see.
    Mr. Wilson. And, again, I want to commend you, the analysis 
that you did is going to be so helpful to us, and then the 
actions needed to address the mission challenges are real 
world. And it is just, again, reassuring, as a Member of 
Congress, but as a parent. Thank you for what you are doing.
    Mr. Pendleton. Mr. Wilson, if I may, the report that you 
held up is a compilation report and it is designed to identify 
what we believe is the major challenges facing the Department 
of Defense. I think what is significant about it is we lead 
with readiness rebuilding, that really we think is one of the 
priority areas the Department needs to focus on.
    Mr. Wilson. And you also provided extraordinary insight in 
regard to health care being provided to our military personnel. 
I urge all members of both subcommittees and the full committee 
to get a copy and--and it is really very helpful.
    Mr. Pendleton. Thank you, sir.
    Mr. Wilson. Admiral Moran, obviously, the trend is so 
significant, and I appreciate your heartfelt statement earlier.
    Can you help the subcommittees better understand the 
issues? I am trying to figure out how most--our most forward-
deployed ships are apparently not being held to the same 
standards as the rest of the fleet. Who certifies the ships 
homeported in Japan?
    Admiral Moran. Mr. Chairman, the certification is done 
locally by the operational commanders in Japan. So it starts 
with the commanding officer of the ship that makes a request 
for waivers or to extend their certification. It goes to his 
direct--in the chain of command, there is a DESRON [destroyer 
squadron] commander, and that is worked out then above his 
level with a one-star, two-star commander of the task force in 
Japan as well as the 7th Fleet commander ultimately makes that 
decision.
    Mr. Wilson. And----
    Admiral Moran. So if I could, there--when someone is 
expiring on a certification, they are required to put a risk 
mitigation plan in place and request the waiver. And once the 
risk mitigation plan is approved in the chain of command, then 
they are allowed to operate along those certifications. So 
while the certifications are expired, there is a risk 
mitigation plan for each one of them.
    But to your point, and to the point that the GAO has 
thoughtfully put out here, is the trend of the number that we 
are asking for waivers is increasing at an alarming rate, one 
in which ought to give us all pause for just how hard we are 
driving the crews in 7th Fleet. Changing schedules, delayed 
maintenance, and additional missions that they have been asked 
to perform, are making it more difficult to get the ship and 
the command, which is called the afloat training group in Japan 
in WESTPAC [Western Pacific], onboard the ship to do the 
certification at the right time before it expires. It is not an 
indication necessarily that they are not qualified to do those 
missions or those certifications.
    Mr. Wilson. And what is the role of the afloat training 
group and what certifications?
    Admiral Moran. I will let Admiral Boxall address it. He has 
got direct comms [communications] with that group.
    Admiral Boxall. Sir, the afloat training group is how we--
they are the senior sailors, usually at the senior enlisted 
level, who go out and are experts in each area of the 
specialties, the 21, 22 mission areas that the GAO mentioned.
    Those sailors that do that work for us generally need the 
time to go do that. And so these sailors will go out and they 
will observe operations. There is a series. And for each of one 
of those certifications, you know, zero might be making sure 
the training is there. Step one might be to make sure that the 
team knows how to do the basic drill sets to an assessment in a 
phase 4. So if they do not meet all four of those phases, they 
do not get the certification.
    Mr. Wilson. And what would be their professional skills and 
training?
    Admiral Boxall. So they are usually assigned to ATG, afloat 
training group, only after demonstrated fleet performance. So 
these are our best of our sailors, we look throughout the 
fleet, that are--so one may be a boatswain's mate for deck 
evolutions, for example, or a quartermaster for navigation, or 
an electrician for engineering, those types of sailors.
    Mr. Wilson. And these are extraordinarily important people. 
And are they fully staffed to perform their duties?
    Admiral Boxall. The answer is they are not fully staffed to 
their--so in Yokosuka, for example, there are two afloat 
training group areas. One is in Sasebo, Japan, and one is in 
Yokosuka. The two together work together to try to help ships 
from both homeports meet their qualifications.
    We have put a lot of money into buying the manpower or 
buying the people we need to get those billets. We have 
increased from 120 up to 180. Unfortunately, they are only 
manned not quite to that level. Actually, they are missing 
about 30 to 40 folks on that team due to the fact that it takes 
many years to generate an E-7 or an E-8, that senior enlisted 
specialist, and the priority goes to putting those specialists 
first on ships and then out to the ATGs.
    Mr. Wilson. And as I understand it, they have 22 areas of 
certification. And is there, again, sufficient personnel with 
skills to really determine the level of certification?
    Admiral Boxall. So in a perfect planning world, the answer 
is we would. If we had all the people we expected and we had 
the time to do it, then we probably would. But the reality is 
that we are seeing that, because of these compressed timelines, 
they have to train in smaller and smaller periods, meaning we 
have to send those evaluators to different places to catch up 
with the ship. That is a very inefficient model, and it further 
exacerbates a challenging certification process.
    Mr. Wilson. And in line with that, is it normal to have a 
single mission area of certification waived prior to 
deployment?
    Admiral Boxall. So we use the term--we create this risk 
area mitigation plan. Before a certification goes out of 
periodicity, because of all these challenges they have--the 
time to do it, sometimes there is a specific piece of 
equipment, sometimes it is an exercise that can't get done, and 
so those ramps have to be put in place for every certification. 
They are put in place by the commanding officer of the ship 
through their commander, back to the surface force commander, 
and then that is reviewed as the operational chain of command.
    Mr. Wilson. And is this the same standard that is used in 
Norfolk?
    Admiral Boxall. The difference in Norfolk is that ships 
coming from the mainland United States from the east and west 
coast, they work up together with an aircraft carrier, and the 
answer is no. They work a plan that gives a 36-month period to 
get those qualifications done, but it is a very regimented 
piece. All the ships come out about the same time. They go into 
a training period for about 6 months: basic, intermediate, and 
advanced. And then they work up together, deploy, through the 
deployment, come back, and are prepared to surge, if needed, 
and then they start the cycle again. That is the Optimized 
Fleet Replacement Plan.
    Mr. Wilson. And with the number of waivers being provided, 
say, per ship, when does it become dangerous for personnel to 
be serving on that particular ship?
    Admiral Boxall. Well, sir, I think that is exactly one of 
the things that we are going to look very closely at in the 
comprehensive review, because we do have different models. 
Those ships forward that are in Yokosuka are closer to the 
operational areas that we deploy ships to. And so the trade-off 
of where is the operational risk too great is exactly something 
that the fleet commander's interest is focused on today, and we 
are looking at the comprehensive review to make a permanent 
process change.
    Mr. Wilson. And who in the chain of--Navy chain of command 
grants the waivers?
    Admiral Boxall. So in the chain of command for a risk area 
mitigation plan is--all those plans are approved by the surface 
force commander. They are the man, train, equip person at 
Commander Naval Surface Forces, and they review all those to 
ensure that they can do everything they can to make that ship 
meet what it can do given the constraints of time or exercise 
or the equipment that is not available to help them achieve the 
certification.
    Mr. Wilson. And then, finally, was the Navy leadership 
aware of so many forward-deployed ships' certifications being 
waived?
    Admiral Boxall. Sir, I think that is something that the 
comprehensive review will look at. Again, I defer to the fleet 
on this one because--and Admiral Davidson will certainly get to 
this as the United States Fleet Forces commander. But I think, 
clearly, this is an area that we have to get to the bottom of. 
Where is the right amount of risk given our over-focus on 
trying to achieve the mission?
    Mr. Wilson. Thank you very much.
    And I now will refer to the ranking member, Madeleine 
Bordallo of Guam. And of course, the American people are so 
appreciative of the very patriotic, dedicated citizens of that 
very vital American territory.
    Ms. Bordallo. Thank you, Mr. Chairman. And I want to take 
this opportunity to thank the military for providing the great 
security that they did for Guam during this exchange with North 
Korea. So thank you very much.
    It definitely is apparent that training and certification 
issues have been building for years within the forward-deployed 
fleet.
    Now, I have this question for both Admiral Moran and 
Boxall. I am concerned that there is a critical deficiency in 
the feedback loop. Are ship captains voicing their concerns 
regarding the readiness of their crews and the condition of 
their ships? If they are voicing those concerns, who is 
assuming that risk? And do you feel they have an adequate 
understanding of the risks they are assuming and how that 
impacts the sailors that are forward deployed? I will start 
with you, Admiral Moran.
    Admiral Moran. Yes, ma'am. It is a great question. First of 
all, it is the obligation of any commanding officer [CO] to 
voice concerns, if they have them, with respect to the 
responsibility that they have, the obligation that they have to 
protect the safety and well-being of their crew. It is not 
unusual at all for a CO to express their concerns when there 
are manning issues or training issues, resourcing issues, and 
those conversations happen on the waterfront all the time.
    What I think has happened here, though, to I think Chairman 
Wittman's point, is we have allowed our standards of the 
numbers of certifications to grow--our standards to drop as the 
number of certification waivers have grown. While not against 
the rules, they are below the standard that we should accept.
    And to Admiral Boxall's point earlier, these are the kinds 
of things that the comprehensive review that Admiral Davidson 
is going to undertake to look at is where is the acceptable 
standard for the number of certifications? And then how are 
those concerns by commanding officers being transmitted up the 
chain of command and what are they doing in response?
    Once the commander's senior approves the waiver, they are 
in a sense accepting that risk. They are allowing the ship to 
move with a greater number of waivers and a number of expired 
certifications. And so the responsibility of our fleet 
commanders and our commanders in the operational environment is 
to wake up every day, assess the environment and assess the 
risk that they are taking from unit to unit across the 
waterfront. And so I think we have got a lot of learning to do 
on that front to your very good question.
    Ms. Bordallo. Well, thank you, Admiral. I think what I 
really would like to know, have these captains or commanders 
ever come to you with risks? Is there a list somewhere? Or have 
they never said anything? That is what I would like to know.
    Admiral Moran. Well, are you talking specifically 
Fitzgerald and McCain?
    Ms. Bordallo. Yes.
    Admiral Moran. Yes. So that is part of the investigation--
--
    Ms. Bordallo. Or any ship for that matter, but especially--
so you have never received any complaints or----
    Admiral Moran. At our level, we would not necessarily 
receive direct from the commanding officer. There is a chain of 
command that runs through the operational chain to the surface 
force commander, and then it would come to us if it were 
something that they needed additional resourcing that they 
couldn't provide for themselves.
    Ms. Bordallo. I understand the protocol, you know, that the 
commander should do this. But I just wonder, are they doing it 
or are they just avoiding some of these things?
    Admiral Moran. I think as Admiral Boxall described, they 
are following the process that requires the chain of command to 
get involved in the risk mitigation process and the steps to 
mitigate any certification that is about to expire. So they are 
all taking on that risk by mitigating it with very specific 
steps that are outlined that they have to follow through on.
    Ms. Bordallo. So, Admiral Boxall, have you--do you have a 
list of some of these risks?
    Admiral Boxall. I can give you an example of the type of--
the mitigations that are in place. For example, as I described 
to Chairman Wilson, the individual steps that it takes, they 
may have four steps or five steps in a process of one 
particular qual [qualification]. They may have--for example, 
they may need to go out, and for a seamanship, they have 
achieved, you know, the basic, the second part where they 
have--and they get to the point where they meet something, they 
didn't have an opportunity to moor to a buoy, for example. That 
becomes a mitigation so that they do not certify, but they say, 
well, the risk of that ship going and doing a moor to buoy for 
what I want them to do probably isn't an issue, and therefore, 
that has been addressed operationally by the commander.
    Now, to your question whether or not the COs will tell us 
when--we expect that, we train them to do that. We go through a 
lot of workups when our command qualifications almost 
exclusively puts COs in a bad position where we have to ensure 
that they will tell leadership when they don't feel they can 
meet the demand. That is what we train them to do.
    Now, the question, if they are going to go be doing an 
operational mission, you know, our sailors are kind of 
conflicted because they want to do that mission. And so the 
question is, is do they feel it, do they want to do that 
mission, do they feel--that is something I think the 
comprehensive review is going to get to. Do we have systems in 
place that accurately measure the risk independently, and the 
operational fleet commander ensures that due diligence has been 
done to the level of risk for the level of operation that they 
will be doing. And that is what I think we are getting to.
    Ms. Bordallo. Thank you. I feel that, you know, if 
maintenance and training and all of this is lacking, the 
commanders, the captains of these ships, should be, you know, 
letting everyone know about it, and certainly maybe we wouldn't 
be in this fix.
    The other question I have is, Admiral Moran, the need to 
grow the size of the fleet has often been a point raised when 
we talk about the Navy readiness. However, the Navy's proposal 
to grow to 355 ships would take decades to be realized, which 
means we have to make do with the size of the fleet that we 
have in the near term.
    With that in mind, what near- and mid-term measures are 
being considered with respect to how we crew, train, and 
maintain the ships that we have today in order to rebuild and 
sustain readiness? How will the Navy prioritize missions or, in 
some cases, turn down missions so we don't put sailors at risk 
by running the fleet ragged without being properly trained and 
maintained?
    Admiral Moran. Yes. It is--a key question for Admiral 
Davidson's team is to assess how much operational tempo in 
places like Japan, Rota, Bahrain, where we have forward-
deployed forces is--reaches a point where we can't do the 
maintenance and the training and have the appropriate amount of 
time left to do the operations.
    On forward-deployed forces like in Japan, the training is 
done while you are at sea operating on deployment, for the most 
part. There is not dedicated time, as the GAO pointed out, like 
we have back here in CONUS [continental United States]. So that 
is an issue that both chairmen have raised as a serious point 
that we have to study to make sure that when we build the model 
for how we maintain and operate ships in the forward-deployed 
naval forces, we have sufficient time to do those things.
    The size of the force, of course, as I testified last 
February and March, does matter. But wholeness of the force 
matters just as much, because you can have a large force that 
is not whole and you are going to run into these problems. If 
maintenance takes longer, it disrupts the schedule. If the 
schedule is disrupted, it disrupts the ability to train. If the 
training is disrupted, you end up in these places you have 
described with expired certifications and so on and so forth. 
So we do have to look at this model from the ground up.
    But we also recognize, part of the reason why we have FDNF 
forces is because we get four times the presence with those 
forces than we would if we had them all in CONUS. So, for 
example, the fact that we have got one carrier in Yokosuka, it 
actually gives us an equal--roughly equal to 16 carriers when 
we only operate 10. That is a big difference. Having four 
destroyers in Rota, Spain, operating off of BMD [ballistic 
missile defense] stations was the principal reason we wanted to 
put those forces forward was to get more out of those ships and 
not have to rotate as many from CONUS to do those missions.
    So all of these things culminate with this notion that we 
aren't big enough to do everything we are being tasked to do. 
And our culture is we are going to get it done because that is 
what the Navy is all about. And sometimes our culture works 
against us. And I think we ask the sailors to do an awful lot, 
to your earlier point, and perhaps we have asked them to do too 
much, and that is what the comprehensive review will look at.
    Ms. Bordallo. Thank you.
    I have just one quick final question for any one of you who 
want to answer. Would you say that sequestration might have had 
something to do with the lack of maintenance and the training 
and so forth, funding not being there?
    Admiral Moran. I am on record, ma'am, that that is 
absolutely the case. That along with nine consecutive 
continuing resolutions, and we are about to hit another one. 
Those budget uncertainties drive uncertainty into schedules, 
drive uncertainty into maintenance. Our private yards, our 
public yards, this is an issue across the board. So the most 
useful thing we could have out of Congress right now in terms 
of addressing a lot of our readiness concerns is stability in 
the budget.
    Ms. Bordallo. Thank you. And I am looking forward to the 
report. And I do want to say, I had a nice conversation with 
Rachel before the hearing today. She is one brave woman.
    Thank you, Rachel, for being here with us.
    And I yield back.
    Mr. Wilson. Thank you, Ranking Member Bordallo.
    We now proceed to Chairman Rob Wittman.
    Mr. Wittman. Thank you, Chairman Wilson. Admiral Moran, 
Rear Admiral Boxall, Mr. Pendleton, thank you for coming before 
us today. Thanks for your service, and thank you for your 
candor and frankness. It is critical for us to get to the 
bottom of this.
    Mr. Pendleton, I want to begin with you. In terms of the 
material and training readiness of our ships homeported in 
Japan versus ships homeported in the United States, is there a 
difference in levels of readiness? And which group of ships are 
more ready than the other?
    Mr. Pendleton. The information that we have in the 2015 
report that we weren't able to update shows trends, and the 
Navy calls them equipment casualties, it is broken stuff, had 
basically been upward for both U.S.-based and overseas-based 
ships. The overseas-based ships casualty reports were--and, 
again, that is equipment--was more steeply upward. But we 
weren't able to update that trend line since then. So I can't 
answer it since 2014 when our data ended.
    Mr. Wittman. But the recent data you have, lower state of 
readiness for forward-deployed naval forces versus those in the 
United States?
    Mr. Pendleton. We saw more--a more steep increase in 
breakdowns for the overseas-based ships.
    Mr. Wittman. Admiral Moran, do you agree with GAO's 
assessment?
    Admiral Moran. I do, Mr. Chairman. There is a--I think this 
speaks to what you raised earlier in terms of the--if we are 
not rotating those ships back, the older they get, the more 
care they are going to need. And that might be an indication, 
and it is part of what we are looking at in the comprehensive 
review, is these extended periods at FDNF having a detrimental 
effect and impact on their material condition the longer they 
go. And is the SRF [ship repair facility], the ships force--the 
maintenance force in Japan, have enough capacity to deal with 
the increased numbers we have put in FDNF Japan in the last 3 
years.
    Mr. Wittman. Following up on that, in order to maintain 
overseas presence, will the Navy increase or decrease forward-
deployed forces in Japan and elsewhere?
    Admiral Moran. Well, I think we have all taken a pause 
here, for all the right reasons, to figure out whether our 
current plan is the right plan. And we are looking forward to 
Admiral Davidson's report in 60 days to let us know whether we 
need to make adjustments to that plan.
    Mr. Wittman. Was the plan prior to this to increase or 
decrease that in the future?
    Admiral Moran. The current plan--we just completed the 
third DDG [guided-missile destroyer] crew DASH [drone anti-
submarine helicopter] ship in Japan that was added to that 
force.
    Mr. Wittman. Okay.
    Admiral Moran. And so I am not aware of additional ones 
this year or next year.
    Admiral Boxall. The strategic laydown plan as we bring in 
LCS [littoral combat ship] in station and rotate them forward 
will increase the presence. But, again, that is with the 
existing strategic laydown plan. We are going to look at that, 
I am sure, as part of this review. Certainly, how we do that 
is, you know, a double-edged sword. We know it is harder, more 
expensive to maintain, but we need ships forward to be there, 
given especially the number of ships we have.
    Mr. Wittman. Gotcha. Very good.
    Mr. Pendleton, from a financial perspective, is it more 
cost effective to homeport ships to the United States or to 
forward deploy those ships?
    Mr. Pendleton. That is a hard question to answer. I mean, 
if you look at it on the margin, it is marginally a little more 
expensive to have ships overseas. We did analysis to show that. 
I would caution against the rule of thumb, not to differ with 
Admiral Moran, because I have heard this many times about you 
get four times more presence. That is true from a four-
structure standpoint, right? I mean, one ship can cover down on 
what four ships would do. But that is mainly because of the way 
they are deployed.
    So, essentially, the U.S. based--the OFRP model, the 
Optimized Fleet Response Plan model has them going out 7 months 
out of every 36. FDNF ships are scheduled to go out 16 months 
out of every 24. There is a graph in our report that describes 
this. I mean, it is difficult to quantify the impact of that, 
sir.
    Mr. Wittman. Very good. Thank you, Mr. Pendleton.
    Admiral Moran, do you agree that if we had more ships in 
our Navy fleet, we could spread the workload more evenly, we 
wouldn't be pushed up against the demands and the stresses that 
happen when you have ships forward deployed for more than the 
planned number of years, extended maintenance periods, 
truncated training periods? Give me your perspective about how 
the number of ships we have today--and let me put it in 
perspective.
    If you go back to the 1980s when we had a Navy of 600 
ships, we had 100 ships forward deployed. Today, we have 277 
ships. We have 100 ships forward deployed. Give me your 
perspective about the size of the fleet in relation to where we 
are today with forward-deployed naval forces.
    Admiral Moran. Well, you just gave the answer for me, Mr. 
Chairman. I mean, that math is pretty hard to argue with. And 
while Mr. Pendleton and I have had this discussion, you can 
argue over the factors, you know, it is four times or three 
times, but the fact is, even with that, those ships are a lot 
closer to where we might have to fight by being there. And I 
think that is a value you can't put a times anything on. It is 
clearly--and the message that sends to our allies and partners 
in the region is vitally important.
    That said, I think you made the point about if we are still 
operating 100 ships deployed today at a force that is 40 plus 
percent smaller than it was in the 1980s, it is--actually, the 
1980s and 1990s, it is going to be a bigger stressor on that 
force. So, yes, I agree with you.
    Mr. Pendleton. Mr. Wittman, may I add one thing?
    Mr. Wittman. Yes, please, please.
    Mr. Pendleton. The admiral makes a great point. And it is 
important to emphasize that the Navy doesn't create the 
demands, the Navy responds to demands. They are being asked by 
the combat commanders and the Department of Defense to fulfill 
those demands. So it is important to make that distinction.
    Mr. Wittman. Gotcha. Very good.
    Rear Admiral Boxall, let me ask this. In order to get ships 
ready today to deploy, you spoke a little bit earlier about 
what they do for material readiness. And what we see is them 
going to other ships, cannibalizing parts in order to get ships 
ready to maintain that material readiness. Is cannibalization a 
systemic problem with surface ships? And is the root cause 
sufficient money to procure new parts or stocks of parts to 
make sure you have them on hand to keep up with routine 
maintenance or expected problems with wearing of parts and 
wearing of systems?
    Admiral Boxall. Sir, the cannibalization of parts off ships 
is something we try to avoid as much as possible. But there is 
a lot of reasons why we do it. Sometimes it is the availability 
of the part. Sometimes it is the--even when we have the money 
to buy the parts is--you know, we have had a lot of money 
restored in the last year, especially the 2017 RAA [request for 
additional appropriations]--but it takes time to go buy that 
part. Some of these are made by very unique vendors, so there 
is some pent-up readiness, spare parts, sparing challenges out 
there, contracting time to do those things. So we are seeing 
some cannibalization increases.
    We are also seeing an increase in the C2, C3 CASREPs 
[casualty reports]. That to everyone is kind of--a C2 is where 
it becomes kind of an attention getter for an operational 
commander. C3 means there is a major issue on that ship we got 
to get to very quickly. There is kind of two reasons for that. 
One is the actual material readiness is degrading and we need 
to bring it to the leader's attention. The other reason is is 
that in places where we are having a difficult time getting 
work done to repair these CASREPs in the yards because of the 
demand, the commanders are trying to boost the priority of 
their jobs to get them in because it is the best way they know 
how. That is a signal back to us also that says, we got to get 
something right and get--not just because we want the reporting 
to be accurate. We don't want commanding officers--again, we 
challenge them with telling us when things are wrong, and when 
they do, they send the flare, and we expect them to do that. 
But if they are doing it because it is the only way they can 
get the response, then that is another issue. And this goes to 
the demand that we have specifically in SRF, ships repair 
facility, in Yokosuka for is probably the more significant 
example.
    Mr. Wittman. Thank you, Mr. Chairman. I yield back.
    Mr. Wilson. Thank you, Chairman Wittman.
    We now proceed to Ranking Member Joe Courtney.
    Mr. Courtney. Thank you, Mr. Chairman. And Admiral Moran, I 
guess--one thing I think might he helpful, for some of us 
anyway, just sort of walk through what the investigative 
process and reporting process is going to look like over the 
next, you know, 60 to 90 to 120 days in terms of the various 
efforts that are underway.
    Admiral Moran. So immediately after both collisions, any 
mishap, we stand up an investigative team. In the case of these 
two collisions, in Japan, we put a dual-purpose investigation 
together. That includes the normal safety investigation and the 
JAGMAN [Judge Advocate General Manual] investigation. Those are 
privileged investigations. We do not share that information 
publically so we can protect folks from being very open with us 
and giving us as much information as possible to determine the 
root cause.
    So those investigations are stood up immediately by the 
convening authority. The convening authority for Fitzgerald was 
the commander of 7th Fleet. The convening authority for McCain 
was Admiral Swift because of the other investigation going on, 
and because we relieved the 7th Fleet commander in the interim.
    So those investigative officers are usually--in this case, 
are both flag officers. They take a team to the site, to where 
the collision occurred or where the--in this case, both ships 
were brought back to appear--one in Singapore, one in Yokosuka. 
And they go through every aspect of an investigation. There is 
a checklist of things you do. We added cyber to that checklist 
because of obvious concerns with the fact that everything we 
operate has a cyber component to it--networks, gear, radios. 
Everything. And so we want to make sure we understand that that 
is not--we want to eliminate that as a potential causal factor 
to a mishap.
    Those investigations can take a week, 2, 3 weeks. And a 
report is then passed to the convening authority. The 
investigation is not complete at that point. That convening 
authority then gets to endorse the report, ask additional 
questions, go review the following things--I am not satisfied 
with X, Y, or Z. And then the investigating officer has to go 
back, look at those things, and provide an addendum to the 
report.
    And then when commander of the 7th Fleet is complete with 
his endorsement, it gets passed to PAC [Pacific] Fleet. And in 
the case of Fitzgerald, that is where the current report and 
investigation reside with Admiral Swift. He then has a 
responsibility to look at the report for completeness and any 
findings of fact that he is unsatisfied with and wants further 
investigation. He can direct it in that endorsement.
    Ultimately, it comes to me, both of those investigations. 
So a lot of people think that once the investigating officer 
submitted a report, the investigation's done, we should share 
that information. But I appreciate the opportunity to explain 
that the endorsement process is still part of the 
investigation, because we could ask for additional 
investigations. So that is on the investigation side. That is 
the very tactical level. What happened to that ship? What 
caused that particular incident?
    The comprehensive review that we directed Admiral Davidson 
stand up, 60 days was to go out and look at all the man, train, 
and equip functions across the force but with specific focus on 
FDNF Japan because of these four mishaps that have occurred in 
the last year out there, to look for things like career path 
management, for are we doing the right training? Is the model 
for how we employ forces in FDNF the right model? Is the 
maintenance model that supports it the right model? All of 
those things we have kind of already talked about in this 
hearing.
    And then above that level, the Secretary is doing a 
strategic readiness review where he is going to look across the 
Department at things that are policy related, resourcing 
related. Are we making the right choices? Do we need more 
guidance?
    And it will be a nice complement to the comprehensive 
review, because it will look above where Admiral Davidson is 
looking. So we will get a very strategic, operational, and 
tactical understanding of what has occurred, why it occurred, 
and then what are the things we are going to do to fix those 
issues. Does that help?
    Mr. Courtney. It is. Thank you.
    And I think it is important just for the public and 
obviously the families to understand, you know, again, the 
different steps. And I am sure, you know, the committees will 
be, you know, following it like a box score in terms of, you 
know, asking questions.
    In your written testimony, which I know you summarized, and 
we, you know, appreciate that. But you did make, I thought, a 
very powerful statement, which is as follows: No matter how 
tough our operating environment or how strained our budget, we 
shouldn't be and cannot be colliding with other ships and 
running aground. This is not about resourcing. It is about 
safety, and it is about leadership at sea.
    And, again, just to go back to the process we are in right 
now. That is really what the 60-day comprehensive report is 
really aimed at in terms of just, you know, why is this a 
recurring event in this particular area of the world; is that 
right?
    Admiral Moran. Yes, sir. But I would also compliment GAO in 
this regard, that I think they offer a pretty nice blueprint 
for some of the things we need to go look at in terms of trends 
and what of those macro trends and what do they imply about the 
force readiness in FDNF Japan and across the fleet.
    So we will get at some of those as well inside a 
comprehensive review. But it is part--a key part of it is do we 
have the right training in place for our commanding officers? 
Are they getting enough of what they should have to operate in 
waters that have become highly congested and contested in that 
region. And it is a lot busier than it was just 8 years ago.
    And so we need to review that, and we need to review the 
training. We need to review the career paths for our officers, 
our junior officers, and we need to make sure that we 
understand that we have the right manning models in place. And 
GAO calls this out in the report about how we establish the 
workweek and how do we respond to the manning profiles for 
those ships.
    Mr. Courtney. Thank you.
    Well, and, again, I think that sort of follows up on what 
GAO sort of was asking for over the last couple of years as 
well.
    I guess one sort of footnote I was wondering, you know, 
what you would think about this in terms of that statement, 
which is that it is about leadership at sea, but it is also 
about leadership, I think, ashore as well in terms of just, you 
know, the way, you know, decisions are being made. And I have 
to say, going back to the Balisle report, which I am assuming 
all the witnesses are pretty familiar with--I mean, that was 
sort of a key critique that Admiral Balisle had which is that 
the lines are kind of blurred in terms of just dealing with 
some of the issues we are talking about here today.
    I mean, ultimately, you know, we are trying to figure out 
who decides. You know, when you have the certification issues 
that Mr. Pendleton described, you know, who calls, you know, 
time-out and just says, you know, no. You know, as persistent 
as the combatant commanders' requests are, you know, when does 
it reach a point where--on where does it reach the point where 
someone says, you know, that is just not going to be deployed 
because it is not safe and it is not ready. And so I am 
assuming that that is also a part of the comprehensive review.
    Admiral Moran. Yes, sir. And I believe the Secretary is 
going to look at that, and a strategic review as well, for 
organizational C2, command and control. Who is responsible 
precisely for readiness and man, training, equip, and 
operational demand in the Pacific Fleet? And how does that get 
balanced against the larger fleet that Admiral Davidson is 
managing out of Fleet Forces [Command]?
    Mr. Courtney. Because even today, I have been a little 
confused about, you know, who is the decisionmaker. You know, 
is it the operational commander? Is it the, you know, forces 
commander?
    And I think, again, Admiral Balisle really, I think, nailed 
that pretty well in terms of just that being an issue that has 
got to be cleaned up. So----
    Mr. Pendleton, you described the trend of the increasing 
lack of certifications which was kind of a top line in terms of 
the number of ships that are out there.
    Can you give us some more specific information regarding 
the Fitzgerald and the McCain, to what extent do they lack 
certifications?
    Mr. Pendleton. I would rather defer specific questions 
about the Fitzgerald and McCain. They did have missing 
certifications, as did most ships. I would like to talk about 
the key warfare mission areas, though, if----
    Mr. Courtney. Sure.
    Mr. Pendleton. And I would give the admirals a chance to 
comment on the specific ships with the ongoing investigation. I 
am uneasy about that.
    I mentioned earlier that 8 of 11 seamanship certifications 
of 11 ships in Japan were expired. There were others that had 
fairly significant expirations of 7 of 11 ships for fire 
support and surface warfare. And for undersea warfare, 8 of 11 
ships had expired certifications. Some of those certifications 
were several months overdue.
    So when we looked at some of the basic certifications, the 
things you have to do to, you know, keep track of maintenance 
and antiterrorism and communication, that kind of thing, those 
were better. They weren't great, but they were better. It 
seemed that seamanship stood out as a problem area. And then 
when you got over into the warfare mission areas, the kind of 
things that you have to do together to be able to do the 
missions of the ship. That is when we started--I presume that 
those were more complicated certifications to obtain. Honestly, 
I haven't been out to talk to them about it. Those were--had 
the higher percentage of ships that had expired certifications.
    Mr. Courtney. Thank you. Well, again, I am sure my question 
is going to be asked at some point----
    Mr. Pendleton. Yes, sir.
    Mr. Courtney [continuing]. In this process because--and, 
frankly, it is a question that needs to be flushed out.
    Mr. Pendleton. Yes, sir.
    Mr. Courtney. So thank you.
    I yield back.
    Mr. Wilson. And thank you, Ranking Member Courtney. And 
truly an indication of how important this hearing is. Our love 
and affection for the 17 sailors that we have lost and others 
who were injured, we have been joined today and we now turn to 
the full chairman of the Armed Services Committee, Mac 
Thornberry.
    The Chairman. Thank you, Mr. Chairman. And thank you all 
for being here. I just want to say I really appreciate the work 
of GAO as well as the work of these committee members and our 
staff on these issues.
    The leadership of the Department in the last administration 
denied we had a readiness problem. They said we were just 
making it up. And I appreciate the persistence [of] members on 
both sides of the aisle in getting the facts. And certainly GAO 
has helped with that.
    Admiral Moran, I very much appreciate you and Admiral 
Richardson's commitment to get to the bottom of this matter. I 
looked a little earlier at your testimony from earlier in the 
year, and you highlighted the stresses and strains on the force 
based on the operational tempo, et cetera. You also testified 
that you thought that the deployed fleet was in pretty good 
shape, the ships here in the United States were really 
suffering.
    Based on what you know today, would you revise that 
assessment?
    Admiral Moran. Mr. Chairman, so--I promised you I would be 
frank, and I will be. I personally made the assumption--have 
made the assumption for many, many years that our forward-
deployed naval force in Japan was the most proficient, well 
trained, most experienced force we had, because they were 
operating all the time.
    I made the assumption. It was a wrong assumption, in 
hindsight. And so obviously, at this point, I would tell you 
that what we have sent from CONUS to deploy, I would maintain 
my position in the hearing last February.
    Clearly, because the models are different and because the 
strain on the force in Japan is so evident to us today, we are 
going to have to get after that question. I don't know 
precisely. And, you know, I am also very anxious to remind the 
committee that--the committees that we have to get to the root 
cause of both mishaps before we can make a determination.
    But the trends that the GAO has pointed out, the trends 
that we are seeing in our reporting stats are concerning, and 
they do demonstrate a fraying of the readiness on the edges 
that we need to address.
    The Chairman. Yeah. I would just comment: I don't think we 
can look at this too narrowly. This is looking at the surface 
fleet. But we know we cannibalize submarines, we have got these 
problems and a variety of other problems. And the other 
services have it too, by the way, which is a more widespread 
problem.
    Let me just ask you this. We talk a lot about the stresses 
and strains on the people. How come the Navy has not asked for 
more people, increased end strength.
    Admiral Moran. Manpower, as you know--3 years as the Chief 
of Naval Personnel, I have dealt a lot with the manpower 
issues. Manpower requires you to project at least 2 years ahead 
to be able to know if you are getting to the right numbers. And 
I don't want to bring this back to uncertainty in budgeting and 
resourcing, but it impacts our ability to assess the right 
number of people when we can't predict or project what we are 
going to be in 2 years.
    So it has an impact. We are always trying to catch up with 
manpower, and I think that is part of what Admiral Boxall 
described in the afloat training group. We bought the billets 2 
years ago. But it takes time to fill those billets, because we 
have to go find the right experienced, right folks that have 
operated and understand what the challenges are in building and 
attaining certifications.
    So manpower is a bit more challenging to get precise. And 
as you know well, manpower also costs an extraordinary amount 
of money. So we are always trying to dial it right. We are not 
getting it exactly right, but we are doing the best we can with 
the inability to project precisely where we would like to be in 
2 years.
    The Chairman. Okay. If you are going to be frank, you got 
to be frank with us and tell us where we complicate your life 
with CRs [continuing resolutions] and the Budget Control Act. 
You did that earlier, and I appreciate it. But don't hesitate 
to----
    Admiral Moran. Sir.
    The Chairman [continuing]. Where we are deficient.
    Let me just ask this, and it goes right back to something 
Mr. Courtney was talking about. It seems to me the hard issue 
is--and you talked about it--for a commander in a ship, saying 
okay, I have got these problems. I got to ask for a waiver. I 
have a risk mitigation plan. You and Mr. Courtney talked about 
it a little bigger. But what is going through my mind is, when 
do you and Admiral Richardson basically say to the Secretary of 
Defense or the President, We cannot do what you expect us to 
do? And to us?
    You said earlier the culture works against us. It is true 
in every service you salute and say, You give us a mission, we 
will do it. I don't know if you have any comments on this. But 
what is going through my mind is when does a service chief or 
vice chief say, We cannot do what you expect us to do with what 
you have given us?
    Admiral Moran. Sir, there is one very good example of where 
we have done that in the past few years. You will recall where 
we gapped carrier presence in the gulf for several months. We 
have done that twice. And that was a recognition that we were 
going to overstress the force and weren't able--we were 
concerned about sticking to our plan in Optimized Fleet 
Response Plan, which was a 7-month deployment. We wanted to get 
there, and we wanted to maintain that.
    The world gets a vote. A lot of pressure came up. And we 
went down and argued why we thought we needed to stick to those 
7-month deployments. And the joint force accepted those gaps. 
It was painful. It was a difficult message to send to the 
region, but it was necessary to be able to continue to try to 
reset the Navy.
    The Chairman. We are going to stay after this, ma'am. We 
are going to stay after this.
    I yield back.
    Mr. Wilson. Thank you very much, Chairman Mac Thornberry. 
We appreciate your leadership.
    We now proceed to Congresswoman Susan Davis of California.
    Mrs. Davis. Thank you. I want to thank all of our chairs 
who are up here today and really have provided a lot of good 
leadership of walking us through these issues. And thank you to 
all of you for being here. And to Ms. Rachel Eckels, thank you. 
Thank you for being here on behalf of 17 shattered Navy 
families who are grieving today. We appreciate that. And it 
helps us to think about your son as well.
    I know that we have been talking a lot about all the 
problems that have been encountered, how tragic they are. But 
one of the things I wanted to ask very quickly was really about 
the heroism that was demonstrated on the ships as well.
    And I know, in having read almost that minute-by-minute 
account of what happened on the Fitzgerald, that there were 
specifically two sailors who were mentioned repeatedly for 
their heroism. Are they up for awards? Have those been 
submitted for recognition? What are we doing to really 
acknowledge the heroism as well?
    Admiral Moran. Well, I appreciate you asking that question.
    There is a difference between heroic and valorous. And 
people often get confused by that. And it sounds like you are 
not. So I appreciate the fact that the question resolves around 
our sailors who operated that night, some who lost their lives, 
who gave their lives for others.
    It is a command's responsibility to initiate the 
recommendation for awards in any circumstance. So as you might 
imagine, right now their focus might be elsewhere. But we will 
get to those. And when they come forward, we will do the 
appropriate recognition that comes from those recommendations.
    In addition to that, though, I think you also know that we 
posthumously advanced all 17 sailors to the next pay grade in 
recognition of who they could have been. So thank you for the 
question.
    Mrs. Davis. Sure. Thank you. I wonder as well--we have been 
talking about whether or not the forward-deployed model is 
sustainable and the fact that it is used so much. I wonder as 
you are--have looked at a whole host of different areas if you 
are feeling comfortable yet kind of ordering those in terms of 
priority. Is it the training for sure that has to be different?
    One of the things that I recall reading with this is--I 
guess at one time it sounds like the initial training, sort of 
the foundational training, if you will, was much longer and so 
that our sailors really, you know, were intimate in many ways 
with the apparatus, with everything that they are asked to do 
differently. Maybe you can speak to that.
    You know, people who know how to build computers obviously 
can respond to the needs of a computer a lot faster than those 
of us who just, you know, use it to get our job done. And so is 
that true? I mean, is there a real difference in the time that 
is spent helping to familiarize our sailors with the ship, with 
what they work with. And on the other hand, then, it is driving 
under, you know, sub--you know, decent conditions that they 
also have to have to be aware of. Where does that fit?
    Admiral Boxall. As we look--we are continually modifying 
our training methodologies, new technologies we have. You know, 
I am sure you have heard, since the Balisle report, we had 
taken a lot of our initial training away for our new 
commissioned officers. We used to have, up at Surface Warfare 
Officer School in Newport, a very long 16-week course.
    Since that time, we have restored 15 of those 16 weeks in 
either pre-division officer training, when they first graduate 
from the academy or ROTC [Reserver Officer Training Corps], or 
whatever, and then another 5-week period, 6-week period 
afterwards. So we have restored a lot of that. We have got a 
lot of the same peak U.S. personnel qualifications standards 
that we require every person on every ship to go through.
    I do believe that we should be open to looking at all of 
this as part of the comprehensive review. And Admiral Davidson, 
as a surface warfare officer himself, certainly understands 
that, you know, we focused our training a lot on ship handling. 
These are very powerful ships. We want to handle them close to 
a pier, where we need to be. We put a lot of money and time 
into bridge resource management, that team piece. The combat 
team and the bridge team working together.
    As we go forward, we will look and say, Do we need to do 
more of that type of training by individual training. I don't 
know the right answer just yet. I am open to the fact that we 
may have it wrong.
    Mrs. Davis. All right. Thank you. I believe my time is up.
    Thank you, Mr. Chairman.
    Mr. Wilson. Thank you, Congresswoman Davis.
    We now proceed to Congressman Duncan Hunter of California.
    Mr. Hunter. Thank you to both the chairmen and the ranking 
members for having this hearing today. Gentlemen, thank you for 
being here and for your service.
    I will just get down to brass tacks really quick.
    You had seven ballistic--you had seven BMD ships forward 
deployed. You lost two. What are you going to do in the 
meantime for those two? What is going to fill that gap while 
they are getting repaired?
    Admiral Moran. Admiral Swift has moved ship deployments and 
ships around within Pacific Fleet, which is our largest 
contingent of naval power. I can't talk about who and what and 
when, for obvious reasons. But he has what he needs to replace 
the BMD capability that he thinks he needs to have at this 
crucial stage.
    Mr. Hunter. So we know you had seven. Seven minus two 
equals five. Are you planning on going back to seven?
    Admiral Moran. Are we replacing the capability we need to 
do the operations we have been tasked to? The answer is yes.
    Mr. Hunter. Okay. Are you going back to seven ships?
    Admiral Moran. The seven ships will be--yes, sir, we will 
stay with seven ships.
    Mr. Hunter. Okay. So you will have seven ships there.
    Admiral Moran. Remember, seven ships--some are in 
maintenance and some are--you know, they are not always all at 
sea. So we are able to move some of those around to accommodate 
Admiral Swift's demand signal.
    Mr. Hunter. So you will be replacing those two ships--you 
will be replacing the capability of those two ships?
    Admiral Moran. We will be replacing----
    Mr. Hunter. So you will have the same capability that you 
had beforehand.
    Admiral Moran. Yes, sir.
    Mr. Hunter. How long will that take?
    Admiral Moran. As long as it takes.
    Mr. Hunter. I mean, how long until that capability gap is 
filled?
    Admiral Moran. Oh I am sorry. I don't have a specific. I 
can get back to you on that.
    [The information referred to can be found in the Appendix 
on page 97.]
    Mr. Hunter. Okay.
    Next, I have been seeing some articles that said that 
surface warfare officer [SWO] training was cancelled. And I 
haven't gotten to the veracity of this. There used to be like a 
6- or 7-month SWO school. And there is not. Now it is DVDs 
[digital video discs] and on-the-job training. Is that correct, 
or no?
    Admiral Boxall. It is true at one point. Back in 2003, we 
initiated what we call computer-based training. That lasted 
about 5 years, 6 years. And then it was--it was removed as a 
bad idea for all the reasons it still sounds like a bad idea.
    Mr. Hunter. So you don't mind stopping there--we have a 
virtual trainer in San Diego for one of the LCS variants that I 
went to, I don't know, 4 or 5 years ago. And it is like 
basically being in a--like an F-35 trainer or something. But it 
is the ocean and the whole bridge. Is that what you call 
computer training?
    Admiral Boxall. Absolutely not. The computer-based training 
that I am speaking of are--think PowerPoints on a CD [compact 
disc]. So that is what was kind of given to them. Because we 
took away their school, we said go to the ships. Do all your 
training there.
    As I mentioned to Mrs. Davis, we have restored almost all 
of that timing. We do it in the fleet concentration centers 
instead of in Newport right now at the division officer level. 
And all other training is similar.
    But you bring up a great point. Our training for LCS, the 
littoral combat ship, that we do in San Diego, and Mayport will 
be doing, is the best there exists that I have seen in surface 
warfare. And so I believe that we will look forward to--as part 
of this review, looking at where we can better use. And we 
already do use a lot----
    Mr. Hunter. Let me interject, now that you said that. There 
is two things. One is called the immersive virtual ship 
environment, right? That is the LCS----
    Admiral Boxall. Yes.
    Mr. Hunter [continuing]. Trainer that we were on the actual 
bridge. Then there is a live virtual constructive training, 
right? And that is the--that is like an Xbox game where you 
can--you can have the ship blow up in places and do things. And 
then you can basically see all the outcomes and affect those 
outcomes like with an Xbox controller, right?
    So my point to this--so after you say that it is great, the 
Navy has only fulfilled 40 percent of that contract, and that 
is a semi-parochial thing, because it is in San Diego. But I 
would think that you would have these virtual trainers for 
every bridge, for every deck, because they are so inexpensive 
and so much easier to train the guys and have them, you know, 
fall in immediately as opposed to doing on-the-job training.
    Admiral Boxall. So certainly we are looking at what you 
call live virtual constructive is--we kind of use that for our 
advanced training when we integrate ships, submarines, aircraft 
in a--you know, we don't want to know if it is real, live, or 
not. But for the specific type of technologies, we already have 
that in other areas, not just LCS. But I do believe that we are 
getting some economy with it in that we are getting better 
quality fidelity training. And we are doing it at a better 
price.
    If you will go back and look at those folks that--the same 
trainers that criticized computer-based training, the same 
types of folks that are leading this other virtual training 
that we are doing are like ``This is a best of both worlds.''
    Mr. Hunter. Let me get into--I appreciate that. Let me get 
in one last thing.
    I think we--Mac said--or the chairman said he didn't want 
to get too narrow on this. I think there is a lot of things 
that we are blaming from forward-deployed model, fleet size, 
maintenance schedule. This wasn't a complex--like a suppression 
of enemy air defense, or something crazy like that. These are 
ships hitting other ships and running aground. And I think it 
is easy to obfuscate and say there is all these different 
problems as opposed to not seeing a ship on a radar or with 
your binoculars out the window. I think it is almost easy to 
get too carried away and not be narrow enough in this case. And 
I hope we just stay on this.
    Thank you. Mr. Chairman, I yield back.
    Mr. Wilson. And thank you very much, Congressman Hunter.
    We now proceed to Congressman Don Norcross of New Jersey.
    Mr. Norcross. Thank you, Chairman. And very humbling day 
when we go to review something like this. But having been on a 
job three times in my lifetime when somebody was killed, it 
immediately took me back to the thoughts that people that I 
worked with immediately reviewed what it is that they are doing 
and how can they prevent something from happening.
    So there was the first collision with the fishing trawler. 
Then there was the Fitzgerald when seven people were killed. 
And I would think that every commanding officer in every ship 
would immediately look to see how they are performing so it 
didn't happen to them. And then the McCain happened.
    So I ask you: What is preventing the next one from 
happening? What is being done different today that was being 
done different from before the McCain accident and before the 
Fitzgerald?
    Admiral Moran. Sir, it is a very appropriate question that, 
as you--I think you are aware, we conducted an operational 
pause around the entire fleet. An operational pause is not 
something we take in lightly. This happens in every region on 
the globe where we have got ships operating and those tied up 
at the pier back home.
    It is an opportunity for commanding officers to do just 
what you said, to also review what they--lessons learned from 
other similar mishaps so that we give them a chance to decide, 
is our training where we need to it be? Are our standards as 
high as they should be? What do we need to do as a team to 
operate better as a team? Because driving ships around is 
incredibly team-oriented. And that is one of the things we are 
looking very closely at, at both of these investigations.
    Mr. Norcross. But the pause happened after the McCain, 
correct?
    Admiral Moran. Yes, it did.
    Mr. Norcross. Why didn't that happen after the first 
collision? After the second collision?
    Admiral Moran. Sir, it should have.
    Mr. Norcross. As individual COs on the ships, wouldn't they 
go through a self-evaluation almost immediately to say, What am 
I doing and how do I prevent before somebody has to tell me 
that?
    Admiral Moran. Absolutely.
    Mr. Norcross. Do you know if that happened on the McCain?
    Admiral Moran. I do not know exact. We are waiting on the 
results of the operational pause. We asked every fleet 
commander to provide input back on what did they learn from 
that operational pause, talked about these things, who actually 
took some action, what kind of additional training. The 
commander of surface warfare sent out additional types of 
training for every commanding officer to use in that with their 
representative crews. But I do not have a list for you. I am 
not sure if Admiral Boxall does.
    No, we do not. But we will get you one when we have it.
    [The information referred to can be found in the Appendix 
on page 97.]
    Mr. Norcross. Finally, what is happening today differently 
other than the operational pause? Is there anything during the 
operation that you have sent out to all the commanders to say 
you need to do this immediately?
    Admiral Moran. Yes, sir.
    So Admiral Swift has already initiated several steps, 
several actions to include a zero base review of the material 
condition of every ship at FDNF to find out where they have 
issues both in the physical plant but also perhaps with 
training and certification. They are going to zero base the 
certifications and make sure that all of those get recertified 
across the force in FDNF and then expand it into the entire PAC 
Fleet.
    He is doing a zero base review of the ATG manning. I am not 
sure you were here when we talked afloat training group. But 
that is the group that goes out to the ships as an independent 
team to look at whether that crew is operating to our 
standards. And so he is going to probably ask for more 
resources for all of those things.
    Mr. Norcross. Has any of this immediate review in turn 
caused any ship to be returned home or to cease operating 
because they were in such violation?
    Admiral Moran. Not to my knowledge.
    Mr. Norcross. Thank you.
    I yield back my time.
    Mr. Wilson. And thank you very much, Congressman Norcross. 
We now proceed to Congresswoman Vicky Hartzler of Missouri.
    Mrs. Hartzler. Thank you, Mr. Chairman. Thank you. Thank 
you, gentlemen.
    So I, like many others here, heard the news of the first 
accident. And I was just--I couldn't believe it. Like, how can 
this happen? And then to have it happen a second time. It is 
both disheartening and disturbing at the same time. And I 
wanted to follow up with some of the things--line of 
questioning of my colleague, Mr. Norcross, in that what are we 
doing now?
    And one thing is--I mean, we knew there was a pause. But 
did you say that you haven't gotten the results of the pause 
yet where we had the USS Fitzgerald in June had the accident. 
So you haven't received that yet?
    Admiral Moran. The operational pause, ma'am, was taken 
after the McCain, not after Fitzgerald.
    Mrs. Hartzler. Okay. Okay. But you haven't received those 
results either.
    Admiral Moran. Not----
    Mrs. Hartzler. That is just----
    Admiral Moran. No, ma'am. Not all of them.
    Mrs. Hartzler. Okay. I want to talk about the number of 
hours. Mr. Pendleton, you touched on that. But how much are 
sailors expected to work right now? And is over 100 hours out 
of line for that? And how do you think the Navy should address 
this?
    Mr. Pendleton. Yeah. I will defer to the admirals to talk 
about how much they are working now.
    In 2014, a Navy internal study indicated that the average 
sailor was working over 100 hours a week, about 108. And they--
so that meant--there is 168 hours in a week. They had--so they 
were working 108 and they had 60 off. So that is about 15\1/2\ 
hours a day.
    The standard workweek, which is founded on a 70-hour base 
workweek and ultimately, when they add other duties, is 81, it 
is fairly grueling in and of itself. So.
    If the Navy was--to the standard that it has, it would--the 
sailor would have 81 hours off and roughly--excuse me, 81 hours 
on and 87 off.
    So just about--just over 11 hours a day is what is sort of 
programmed in.
    Mrs. Hartzler. So Admiral Moran, is that something that 
you-all are striving to get to, those type of numbers?
    Admiral Moran. We are examining that through--we have an 
organization down in Millington, Tennessee, that is used to go 
and look at all sea duty to determine what the right workweek 
levels ought to be. We have done this for decades.
    We have been pretty consistent with it, but I think, based 
on the trend lines that we are seeing in FDNF that we referred 
to earlier, it is certainly time to look at whether the 
maintenance backload, the work effort that is going on at FDNF 
Japan today, by sailors on the waterfront, is reaching a point 
where that workweek needs to be modified.
    Mrs. Hartzler. Great.
    What about--when I first heard about this, I had the 
thought that maybe it was cyber. Now, I have read some reports 
saying that, perhaps, that has been ruled out. But you did 
mention that you are going to--in this study, in the review, 
they are going to make sure it is eliminated.
    What can you tell us about that? How do you go about 
eliminating that somebody took over your systems?
    Admiral Moran. It is relatively new ground for us. This is 
the first time we have sent a team from our Cyber Command here 
in Washington. Commander, 10th Fleet, sent a team over there to 
pull as much data from that ship as possible that records data 
to see if there were any disruption or interruptions that are 
abnormal.
    I would also offer to you that just about every three-
letter agency in Washington, DC, has looked to see if there 
were indications of an intent or potential acknowledgment of a 
cyber attack. We have seen--I have personally not seen any 
evidence of that.
    But we are not stopping there. The team is in place in 
Singapore today, has been for several days, capturing all of 
the computer and network information to see if they can find 
any abnormalities or disruptions.
    Mrs. Hartzler. Okay. Well, I am glad to hear that. And in 
some ways it would be easier if you could blame somebody else 
rather than taking a hard look at, you know, maybe it is just 
that we need more training and it is our own policies and 
procedures that need to be addressed.
    But the last thing is that--you know, I take very serious, 
as do all fellow members, of appointing our young men and women 
to your service academies. And the Naval Academy is just 
exemplary. But it is always a very sobering, but inspiring as 
well, event when I have the parents and the young men and women 
come that are going to have this opportunity. But it is 
sobering, the fact that I look into the eyes of those parents. 
And that while they are very, very proud, many times I see a 
little bit of fear in the back too. What is going to happen to 
my son or daughter?
    And so this is a tough question. But, Admiral, from a scale 
of 1 to 10, with 10 being 100 percent confident that, when we 
send this young man or woman out to sea, that they are going to 
have the resources they need to come home safe, not from an 
enemy but from our own equipment and our own readiness.
    How confident are you that you would tell me so I can go 
home to my parents and look them in the eye and say they are 
going to be okay?
    Admiral Moran. Tough question to answer. How I would answer 
it--how I will answer it is that I have incredible confidence 
in this team to learn from this and to get it right. And I 
would share that with any parent that has got a son or daughter 
who is considering the Naval Academy or enlisting in the 
service.
    We are not perfect, but we need to strive to be that. And 
that is part of what this review is all about is to make sure 
we understand what went wrong and fix those things to the best 
of our ability to regain the confidence of not only our parents 
and their families but our sailors as well.
    Mrs. Hartzler. Absolutely. They deserve that. And I know we 
all stand ready to partner with you to do whatever we need to 
do to get this right so our sailors come home safe.
    Thank you.
    Mr. Wilson. Thank you very much, Congresswoman Hartzler.
    We now proceed to Congresswoman Colleen Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chair. Thank you, gentlemen. 
And thank you, Mrs. Eckels, for being here. Thank you very 
much.
    Admiral Moran, one of the things that you said is troubling 
to me. And as you know, the GAO report in 2015 had a 
certification and looked at, I think, 22 areas, 11 were found 
to be, I guess, expired. And the one that seems to be 
appropriate for what happened is the mobility seamanship where 
8 certifications out of 11 had expired for about 73 percent.
    What I am first curious about is--we have to look at these 
two collisions. And they are really with commercial vessels, 
large commercial vessels--the tanker for McCain and then, of 
course, the container ship for the Fitzgerald.
    I am curious as to whether part of the training that they 
receive--and you said it yourself in your testimony. It is very 
congested. And when--in these areas than they were 2 years ago, 
just the amount of traffic. And we all know. The Asia-Pacific 
area has just grown, and the amount of commercial traffic that 
we are dealing with is different. And it is sort of the tension 
between commercial plus military. And I am pretty sure our 
ships don't go out and advertise that they are going out.
    So what is it that is done in terms of the training of our 
sailors as to how to prepare when they are--you know, it is not 
whether you can aim the missile correctly or anything like 
that. This is different. This is just being in--like on the 
freeway. How are you going to manage that? Is that something 
that we have sort of overlooked? We are so busy training them 
on cybersecurity and radar and everything else that we are 
not--we missed the fundamental types of issues like how to 
navigate?
    Admiral Moran. We are asking the same question. And I think 
Admiral--I know Admiral Davidson is going to look very hard at 
that in this comprehensive review.
    But you are absolutely right. We have moved from a country 
road to 395 going south right now in places like the Singapore 
Straits, in the Red Sea, and other areas where we need to be as 
a Navy.
    But it is--I would offer Admiral Boxall, who has been there 
and driven ships in that region, maybe he could comment on that 
as well.
    Admiral Boxall. Absolutely.
    The region has gotten much more difficult to navigate. 
There is no question. But to your point of, we ought to be able 
to do it there, anywhere, all the time. And we absolutely agree 
with you there and why we are so committed to getting this 
right.
    We have--to your question on the certification 
specifically. There is two certifications that I think come 
most to mind when you look at our ability to safely navigate. 
One is MOB-D, mobility--I'm sorry--MOB-N, mobility navigation, 
and the second one is mobility seamanship.
    The seamanship looks mostly at deck evolutions. Those are 
how do you tie up the ship, how do you use boats and things 
like that. The navigation one is absolutely critical and why, 
if you look, most of those are done first when the ships come 
out.
    We have a tiering concept now that focuses on those skill 
sets. And even in the GAO report, he will let you know that the 
tier 1 are less expired than the tier 2, warfighting.
    We probably need to look more closely at--there might be a 
tier 0, ones that never go out. And these are the types of 
things that we need to look very closely. That is what I sense. 
I have been in those waters. I had a carrier strike group 
there, but I have done it as an ensign off the Singapore 
Strait. And I am shocked at the difference between those 30 
years in my career. It is like two different worlds.
    So this does--you know, we are preparing for a lot of other 
missions as we return to sea control. But this, if nothing 
else, reminds us of our absolute imperative to get mariner 
skills right. We are committed 100 percent to doing that. And 
we will do whatever it takes. And that is what--Admiral 
Davidson will make that a fundamental part of his 
investigation.
    Ms. Hanabusa. And I guess--I am almost out of time. But how 
do you prepare for that? It is like learning how to drive, 
right? You got to be on the road, and you got to do it. There 
is no, I guess, replacement for that.
    So is there an idea how you are going to train your sailors 
to do that?
    Admiral Boxall. Absolutely. I have a teen driver also. I 
use this analogy. My teen driver next month will be able to 
drive anywhere in a car, according to the State. Not according 
to his dad. So there is this same type of process. We have got 
to give them the basic tools, we have got to train them 
together, and someone--and this is what we will look at--has to 
ensure that they meet a standard--not just that officer but the 
team--to keep that team safe.
    It is not just that one radar operator. It is not just the 
lookout. It is not just the person driving the ship. It is the 
team, the ability to communicate that data to keep situational 
awareness and keep that ship out of danger. We owe nothing less 
to those sailors.
    Ms. Hanabusa. Thank you.
    Thank you, Mr. Chair. I yield back.
    The Chairman. And thank you, Congresswoman Hanabusa.
    We now proceed to Congressman Bradley Byrne of Alabama.
    Mr. Byrne. Thank you, Mr. Chairman. Thank you, gentlemen.
    I was listening to you, Admiral Moran, about the 
difficulties presented to you when we pass a continuing 
resolution.
    Last July, July of this year, the House of Representatives 
passed an appropriations bill. Last year in the appropriations 
bill, we appropriated $38 billion for operation and maintenance 
for the Navy. The Navy requested a $7 billion increase this 
year. And our appropriations bill that we passed in July, we 
plussed it up another $500 million above your request.
    So the House of Representatives appropriated the money for 
fiscal year 2018 that you need for your readiness. The response 
we have gotten back today from the United States Senate is a 
90-day continuing resolution. Let me read from your prepared 
testimony and ask you to respond to that in light of your 
statement: Funding at prior year levels through a continuing 
resolution not only disrupts the gains, it begins to reverse 
them.
    Are you telling us that a continuing resolution actually 
reverses the gains you are attempting to make in readiness for 
the United States Navy?
    Admiral Moran. What I mean by that, Congressman, is that 
when we cannot put ships on contract for avails 
[availabilities], and we were on a recovery path, and we no 
longer can stay on that recovery path, we are reverting back to 
a different plan--a different ramp.
    Mr. Byrne. But that is as a result of a continuing 
resolution----
    Admiral Moran. Yes, sir.
    Mr. Byrne [continuing]. As opposed to actually 
appropriating.
    Admiral Moran. Yes, sir. That is correct.
    Mr. Byrne. All right. So explain in a little more detail 
exactly how does a continuing resolution disrupt that or 
reverse that? What is it in your process that that causes a 
problem with?
    Admiral Moran. Well, if you can't put an avail that you 
have told the yard that they are going to get on contract, 
because there is--the limits of our continuing resolution rules 
do not allow us to put those new contracts in place until we 
have a budget, then that yard has got to do something with its 
workforce. And when we do get the money and go back to the 
contract in the next quarter, it is going to be less efficient, 
and it is going to be far more--well, I won't use that word, 
but it will be more expensive, because they have had to make 
adjustments. They have had to move work around. They have maybe 
had to let people go and then hire them back.
    So those are some of the impacts in disrupting the yards 
that are trying their hardest to help the Navy get better in 
terms of eating away at that mountain of backlog maintenance 
that we all know is out there. And they have done a terrific 
job over the last year.
    And thanks to Congress's support in the RAA in 2017, we 
were able to put $1.6 billion immediately on contract to bring 
avails back into 2017, which we were planning now to have to 
defer into 2018 only to have them deferred again. So that is 
the disruption I am talking about.
    And Ron, if you want to add anything to that.
    Admiral Boxall. No, sir. That is----
    Admiral Moran. He is the guy that pays the money when you 
appropriate it. So--it is important.
    Mr. Byrne. We appreciate what you both do.
    Let me go back to the administration's request for fiscal 
year 2018. The administration requested the construction of 
nine new ships for fiscal year 2018, and the House passed 
NDAA--we passed earlier this summer. We authorized the 
construction, and our appropriation bill followed this, for the 
construction of 13 ships.
    So I think--listening to your prior answers to Mr. 
Wittman's questions, I think you would agree with me it is 
better for us to be finding the extra money to buy those extra 
ships than to stick with what the original request was. I think 
you would agree with that.
    Admiral Moran. I would agree we need a larger Navy, sir.
    Mr. Byrne. Yeah. But to get there, we have to spend more 
money.
    Admiral Moran. Yes, sir, because the trade-offs we are 
having to make, I think, are pretty apparent. And most of those 
trade-offs involve readiness, training, and manpower. When you 
buy ships or you prioritize ships, those are the trade-offs you 
got to make inside a limited control on your top line.
    Mr. Byrne. Well, Admiral, there was a lot of talk about 
what is your responsibility in all this. Congress bears a 
responsibility in all this. If these accidents tell us 
anything, it is that we can't wait to build up our fleet. We 
need to start now. And so I was proud to vote for that 
appropriations bill and our authorization bill earlier this 
year.
    I am disappointed that the Senate has chosen to send us a 
continuing resolution instead of making an appropriations bill. 
But I believe you can count on the members of this committee 
continuing to do everything we can to provide you with what you 
need, not only to defend America but to keep our sailors safe 
in doing so.
    I thank you, Mr. Chairman. I yield back.
    Mr. Wilson. And thank you very much, Congressman Byrne.
    We now proceed to Congressman Anthony Brown of Maryland.
    Mr. Brown. Thank you, Mr. Chairman.
    I too believe that Congress has a responsibility to fully 
resource our armed services. In fact, I will go so far as adopt 
and associate myself with General Milley's comment, and I 
paraphrase, that continuing resolutions--and I will add 
sequestration--is comparable to legislative malpractice.
    But also, Admiral Moran, I want to thank you for 
acknowledging, and Mr. Courtney pointed out, and I am reading 
from your statement, this is not about resourcing. It is about 
safety, and it is about leadership at sea.
    Something is wrong. In a few months, 2 cruisers, 2 
destroyers, 17 lives. I represent the Fourth Congressional 
District in Maryland. Three of those seventeen young men were 
Marylanders: Alex Martin; Kevin Bushell; and Timothy Eckels, 
whose mother was here today.
    Something is definitely wrong. In my 9 months as a member 
of the House Armed Services Committee, I think I have lost 
count at the number of times that senior leaders from all 
services have come to this committee and said that ``We are 
ready to fight tonight.'' I don't think that these collisions 
are consistent with that claim. And regardless of the OPTEMPO 
[operations tempo] or the resource constraints, whether you 
have a 250- or 350-ship fleet, whether the defense budget is 
$550 or $650 billion, we all have a responsibility. And yours 
is to manage those resources in a way where readiness is not 
exclusive or mutually exclusive with safety.
    I thank you for your leadership. And I understand and I 
acknowledge that you get that.
    So here is my question, and it has been touched on earlier. 
Admiral Moran, in your written testimony, you identified 
cybersecurity afloat and ashore as a significant readiness 
shortfall that was helped by the fiscal year 2017 additional 
appropriations. So that is good. You have identified it as a 
shortfall. You came to Congress, and Congress helped.
    Can you elaborate on the progress that the Navy has made to 
improve cybersecurity on our forward-deployed naval forces, and 
are the forward-deployed naval force cruisers and destroyers 
and their control systems currently equipped to defeat cyber 
threats?
    Admiral Moran. Congressman, I would appreciate an 
opportunity to come and bring that to you in a more classified 
setting. It deserves that kind of detail, otherwise I am just 
going to gloss over it here and it won't be satisfying.
    Mr. Brown. And I appreciate that. And I would hope that, 
through committee staff and my personal staff, that we can do 
that, because--look, I was on the USS Nimitz 4, 5 months ago. I 
went to the command information center. I visited the bridge. 
There is a lot of floating technology. There is a lot of 
networking--ship to ship, ship to air, ship to shore. It is not 
a floating city, it is a floating State. Tremendous 
technological assets. And the first thing that came to my mind, 
when I read about the first incident of two large vessels 
colliding with one another, is how does that happen?
    And I think, as my colleague from California said, you 
know, sure, we talked about certification and training and 
maintenance. We are talking about men and women on a bridge 
with equipment and technology to see on the open seas. How does 
that happen?
    So I would really like to have a better understanding of 
the cyber vulnerabilities, our defense, our security, when it 
comes to our floating, you know, vessels. I mean, it is--
because I have got to believe--and I am glad to hear that you 
are including that in the investigation, that your surface 
vessels, your aircraft are just as vulnerable to cyber attacks 
that are going to be disruptive in combat and noncombat 
operations. I certainly welcome the opportunity to hear more.
    Thank you, Mr. Chairman. I yield back.
    Mr. Wilson. And thank you very much, Congressman Brown.
    And we now proceed to Congresswoman Elise Stefanik of New 
York.
    Ms. Stefanik. Thank you, Mr. Chairman. I want to associate 
my questions with a follow-up to my colleague Mr. Brown. I too 
think it is incredibly important that we receive a briefing in 
a classified setting regarding cyber threats to our naval 
ships.
    But I want to ask you specifically. You mentioned that we 
are integrating cyber and network vulnerabilities as part of 
our ongoing investigation. How is that happening specifically, 
even if it is just to rule out cyber as a potential cause?
    Admiral Moran. Specifically, Vice Admiral Gilday, at 10th 
Fleet, is our fleet Cyber Command, he has a team that he has 
formed that will go--they are a team of experts. I mean, very, 
very talented young men and women that will--that are in place 
and will use their knowledge of how they would attack to 
determine whether we have been attacked. And they will know 
where to go look.
    This is the first time we have done this. And we are not 
stopping just--this is to try to institutionalize doing cyber 
as part of any mishap--aviation, submarine. You name it. We 
need to go look at it as an order of business and not hand-wave 
it to its cyber.
    Ms. Stefanik. Yes.
    Admiral Moran. That is where we are headed.
    Ms. Stefanik. Yes. I agree with that, and that leads to my 
question. You mentioned that you are institutionalizing this 
process. This is the first time that cyber has been integrated. 
Is that servicewide? Is that going to be a part of any future 
investigation?
    Admiral Moran. Yes. Absolutely.
    Ms. Stefanik. Can you describe other activities the Navy is 
institutionalizing, like Task Force Cyber Awakening and 
CYBERSAFE, to up our game when it comes to protecting our 
critical tactical platforms from cyber threats?
    Admiral Moran. I am sorry. Can you repeat the question?
    Ms. Stefanik. Sure. What other activities is the Navy 
institutionalizing, such as Task Force Cyber Awakening and 
CYBERSAFE, to increase our cybersecurity when to comes to 
protecting our tactical platforms?
    Admiral Moran. Yes. Great question.
    So those efforts weren't started and completed. We continue 
to work through several of the--several of the discoveries 
during tests for Cyber Awakening, as an example.
    One of the journeys that we are on right now that our CNO 
[Chief of Naval Operations], John Richardson, has really 
brought forward is this notion of understanding all of the 
digital connections that are in--that are resonant within every 
system we have out there today. And they are not connected as 
well, and we are not able to operate them as effectively as we 
should.
    That is also driving--when you dive into it that deeply, 
you also realize that there is a cyber component to trying to 
make the Navy more digitized, because it could become 
vulnerable more quickly unless you protect that--those digital 
databases and the ability to do analytics and those sorts of 
the things.
    So, again, when we come over to brief you on the classified 
level, we will show you what we did with the money that 
Congress gave us at the end of this year, in fiscal year 2017, 
where we applied it, to what defensive systems and protections 
that we needed to do.
    And in some cases, it is fundamentally basic things like 
shifting to the new Windows across the board where we are 
getting commercial protection that comes with that product as 
opposed to living off of older Windows versions on older gear 
that are very vulnerable without that protection.
    Ms. Stefanik. Sure. Just to use that example, there is a 
sense of urgency to this. Technology is changing. If an example 
is making sure that you have the updated version of Windows, we 
need to do better in terms of addressing this.
    Admiral Moran. And the Department of Defense has mandated 
that across the services. All of us are responding to this. We 
have a deadline; it is coming up. And we are all--I can only 
speak for the Navy, but we are on track to meet that deadline 
on things as basic as what you just described.
    Ms. Stefanik. Thank you very much, Admiral Moran.
    And I yield back.
    Mr. Wilson. Thank you very much, Congresswoman Stefanik.
    We now proceed to Congressman John Garamendi of California.
    Mr. Garamendi. Thank you, Mr. Chairman.
    And I want to thank my colleagues for delving into this 
issue of cybersecurity.
    Admiral--Admirals--and we thank you for all of your service 
and for being on top of this. The loss of life is of great 
concern to all of us, and our hearts go out to all the 
families.
    The question of cyber is much more than hacking. The single 
point of failure of most everything is GPS [Global Positioning 
System]. I assume you will be looking at the downgrading of GPS 
that can occur rather easily, particularly in those areas where 
there happens to be other folks around. So I would like to have 
that as part of that review.
    Also, the electronic equipment, not specifically with 
regard to hacking or cyber but, rather, its validation that is 
it actually working as it is supposed to, navigation equipment, 
all of the radar and so on, I assume that the review will be in 
that area as well as the cyber area. Is that correct?
    Admiral Moran. Yes, sir. That is correct.
    Mr. Garamendi. Okay. And I would suggest that the companies 
that built that equipment not be the ones responsible for 
certifying that it is actually working. You might think about 
that.
    Also, the commanders, the commanding officers of the ship, 
how often are they moved from one ship to another? What is the 
length of time that they spend on any one ship?
    Admiral Boxall. As a commanding officer?
    Mr. Garamendi. The top three officers.
    Admiral Boxall. Okay, top three officers.
    So the executive officer on the destroyers--right now, we 
are on a model that has the executive officer fleeting up to be 
the commanding officer. And the intent was to build continuity 
to ensure that there is a clean turnover. So that tour is about 
18 months. There is a short break in the middle to kind of get 
them a little bit of head-clearing, and then they go back to 
the same----
    Mr. Garamendi. On the same ship or to a new ship?
    Admiral Boxall. On the same ship.
    Mr. Garamendi. And the commanding officer?
    Admiral Boxall. The commanding officer, after they leave, 
will go ashore, usually, or to another at-sea job. And then 
they will be up for a major command job on a cruiser, for 
example, or a big-deck amphib or a major command-level ship.
    Mr. Garamendi. I have a general concern about the way in 
which the military moves people from one job to another within 
very, very short periods of time. The concern is that it was 
the previous guy that is responsible and left the problem and 
it is not really solved. I have seen this in other areas. I 
would like to have a fuller discussion about whether that cycle 
is too fast and nobody is around long enough.
    I am pleased to hear that the executive officer stays with 
the ship. Or not?
    Admiral Boxall. Yeah, the executive officer usually stays 
with the same ship. Sometimes there is an anomaly, but for the 
most part--but we are looking at the whole training model, not 
just the commanding officer level, but also at the division 
officer level we do rotate ships. There are advantages to doing 
it, in that you get different perspectives. There are also 
disadvantages, in that you lose continuity on that ship.
    This is something that Admiral Davidson, we believe, will 
address as he looks at the training paths of those that 
ultimately command those ships. Command of those ships is 
critical, and obviously we want to make sure that they have the 
most qualifications they can have.
    Mr. Garamendi. When the final reports come back, I assume 
we will have another hearing on the final reports, and that 
will be informative.
    My final question really goes to a piece of testimony 
earlier having to do with virtual training facilities. You 
specified the LCS as a successful virtual training program. I 
assume that is a bridge that is virtual.
    Could you go into that for the next minute and talk a 
little bit more about that and how that might be expanded if, 
in fact, it is as good as you say it was?
    Admiral Boxall. Well, again, we are looking at the feedback 
from people using it and then from the fleet. So this is not 
all done virtually. We still do real, live, similar to how a 
pilot will get simulator time. What is different is that we can 
create a virtual environment. We don't have to have the level 
of feel and touch that an aviation helicopter or fixed-wing 
aircraft will have to use.
    So this technology is out there. The sailors are 
comfortable with it; they understand it. And perhaps we can use 
that to continue to improve these skills where we may not have 
the dedicated at-sea time to do so while the force is working 
very hard to meets its commitments.
    Mr. Garamendi. Those virtual experiences have proven to be 
very successful in the airframe operations. And further 
discussion on that would be useful, and your report, I suppose, 
will deal with that as a potential training asset.
    With that, I yield back. Thank you, Mr. Chairman.
    Mr. Wilson. Thank you, Congressman Garamendi.
    We now proceed to Congressman Mike Gallagher of Wisconsin.
    Mr. Gallagher. Thank you, Mr. Chairman.
    Gentlemen, thank you for joining us today.
    I want to revisit two lines of questioning, hopefully 
without being repetitive. I think one of my colleagues 
mentioned the 2015 GAO study that found the Navy was only able 
to meet 44 percent of requests from combatant commanders 
[COCOMs] to meet operational requirements. At the time, the 
Navy indicated that it would require over 150 more ships to 
fully meet all COCOM demands.
    So my question is, has that number changed? If so, what is 
the number now? And what fleet size would that correspond to?
    Admiral Moran. Sir, I do not know whether that number has 
changed. It has probably gone up, not down. So I will do some 
research and get back to you, if that is okay.
    [The information referred to can be found in the Appendix 
on page 97.]
    Mr. Gallagher. Sure.
    Admiral Moran. Thank you.
    Mr. Gallagher. Yeah, I just think, obviously, the reviews 
are underway, and we really appreciate your commitment to 
getting a thorough understanding of what happened. But I 
suspect, when the dust settles, the simplest conclusion will 
remain, that we have placed an enormous amount of stress on the 
fleet.
    So I think the question we need--and I know that Chairman 
Thornberry alluded to it earlier--the question we need to 
answer is, what is the right number of ships you need in order 
to avoid placing that stress on the force and avoid tragic 
accidents like that?
    And I think you have a variety of people here on this 
committee that are committed to making an argument for that 
number. And I think we forget that the 355 number that we throw 
out so often is indeed a minimum based on the requirements that 
the COCOMs are seeing out there.
    Separately, there was a talk about the 10-year hiatus for 
surface warfare officers and training, and I would just like to 
dig a bit into what appears to be the relative deprioritization 
of surface warfare in the Navy.
    It has been about 10 years since the SWO commanded the 
Pacific Fleet and 9 years since the SWO commanded the 7th 
Fleet. Isn't the Navy's traditional policy to rotate these 
commands so that the standards are upheld amongst the surface, 
submarine, and aviation communities?
    Admiral Moran. At this level, at the three- and four-star 
level, we pay less attention to what the community device you 
are--and what community you are from than we do at experience 
level, judgment. And, you know, in very simple terms, best 
athletes for the job.
    It, of course, would be ideal if we had an even spread all 
the time, but that often gets disrupted by some of the other 
issues we have been dealing with here for the last several 
years that I think you have read about that have put a real 
squeeze on the talent level that is available because of 
ongoing investigations. So hopefully that ends here real soon 
and we will be back to more of a steady state.
    Mr. Gallagher. Sure. So it would be fair to say that, if we 
have concerns that there are no qualified surface warfare 
officers available to relieve the vice admiral--I forget the 
last name, apologize--from your perspective, that is less of a 
concern because the particular heritage of that officer, their 
community, matters less than their overall fitness.
    Admiral Moran. Yes, sir. Admiral Sawyer, who we put into 
7th Fleet, he was already designated to go there. This--clearly 
near the end of his predecessor's tour, so he was already 
confirmed by the Senate.
    But here is an officer, a submarine officer, that operated 
extensively in 7th Fleet as not only a commander but as a 
junior flag officer, but also as the deputy fleet commander in 
PAC Fleet, so enormous experience and credibility in that 
region. So, I mean, we looked at that much more than we did the 
fact that he was a submariner.
    Mr. Gallagher. Is it not true, though, that if you look 
more broadly at Navy leadership from a historical perspective, 
there is a relative dearth of surface warfare officers at 
present at the highest levels of service?
    Admiral Moran. Well, we have Admiral Davidson and Admiral 
Howard as two four-stars leading our Navy in critical places 
around the force. We have three-stars in very important places 
throughout the Navy. So I wouldn't call it a dearth, 
Congressman, but I would call it maybe less than our average 
for this point in time.
    Mr. Gallagher. Got it. And, finally, I just would like to 
echo what my colleague from Alabama said about our 
responsibilities here in Congress to provide you with the funds 
that you need in order to do your job. And, you know, in light 
of the job that we are asking your sailors to do every single 
day--and, you know, a lot of this goes unnoticed, right? 
Because the majority of what you do in uniform is actually not 
high-end combat; it is waging peace.
    I just really feel that we need to step up to the plate and 
do a better job here in Congress to end the defense sequester 
and begin the process of rebuilding the Navy. So thank you, 
gentlemen, for being here today. This is important.
    I yield.
    Admiral Moran. Congressman, if I could, just for the 
record, Admiral Kurt Tidd, a surface warfare, is commander of 
SOUTHCOM [U.S. Southern Command], a combatant commander as 
well, sir. Thank you.
    Mr. Wilson. Thank you very much, Congressman Gallagher.
    We now proceed to Congressman James Langevin of Rhode 
Island.
    Mr. Langevin. Thank you, Mr. Chairman.
    And, gentlemen, I want to thank you for your testimony 
today.
    The incident involving the USS Fitzgerald and the McCain 
were tragic events, and I wish we had never gotten to this 
point. And my thoughts and prayers are with the families of 
those who were lost and those who were injured, and we are all 
anxious to get to the bottom of what happened.
    But this appears to be a symptom of a larger problem. I 
know we have touched on this in many different capacities here 
today, but the U.S. Navy--it is my understanding of all of 
this--has moved training out of the schoolhouses and, instead, 
embraced an on-the-job training model, which has left sailors 
really to operate with little sleep and without a singular 
focus on learning.
    So, you know, in an attempt to meet a high OPTEMPO demanded 
by the Navy, which only continues to increase, we have made 
structural choices that have left us with insufficient shore-
side training infrastructure and really hindering our ability 
to keep our sailors safe, in my view.
    Would you agree with this assessment? And how do you 
believe we can reinvigorate training initiatives to make sure 
that any incidents such as these are not of our own making.
    And I guess----
    Admiral Boxall. Yes, sir. I will take that, if you don't 
mind.
    The Surface Warfare Officers School, obviously, in the 
great State of Rhode Island, is an absolute core place where we 
achieve our competencies, from division officer all the way up 
to major command and further.
    We are going to look at that training. As I said before, we 
did take the schoolhouse training for division officers out of 
Surface Warfare Officers School and move them to a surface 
warfare officers school in the homeports where they are going. 
So we took that 16 weeks of training we used to go when I was 
an ensign versus the 16 weeks we do in a 9-plus-5 and -6 model 
we are on right now.
    So, to your point of what else can we do, I think the 
review will look at that, whether we need more improved and 
more capacity of training in the schoolhouse, whether it be on 
the waterfront or up in Surface Warfare Officers School. And, 
you know, again, I think we will have more information when we 
see the outcome.
    Mr. Langevin. Thank you.
    Mr. Pendleton, do you have anything to add?
    Mr. Pendleton. Not really, sir. That is not something we 
looked at specifically, the schoolhouse training.
    What we pointed out was, respect to the forward-deployed 
naval forces, is they were just so busy that they didn't have 
dedicated training time. So most folks arrived--we heard when 
we went on ships and did focus groups that the fact that 
sailors would arrive green and untrained put a burden on the 
sailors that were already there. And we heard that 
consistently.
    Mr. Langevin. Thank you. Admiral Moran and Admiral Boxall, 
I also fear that the current OPTEMPO is not sustainable but 
that we seek to sustain it to the detriment of training and 
certification requirements.
    Now, recent reports indicate a large margin of separation 
when it comes to training and certifications between U.S.-based 
cruisers and destroyers versus forward-deployed naval forces.
    So were there any indications or warnings that the forward-
deployed naval forces' OPTEMPO was leading to a train-on-the-
margins scenario and not meeting qualifications or 
certification standards for key surface warfare systems?
    Admiral Moran. Sir, it is a great question and one that 
Admiral Davidson will absolutely look at in his comprehensive 
review. What did we miss? What should we have seen earlier to 
address them in order to prevent the trends that were already 
starting earlier with Antietam, for example, and Lake Champlain 
that preceded both the Fitzgerald and McCain?
    So we have to get after this question about why didn't we 
see these trends earlier, why didn't we take more action much 
earlier than now, for example. So it is a fair question and one 
that Admiral Davidson will look at.
    Mr. Langevin. Good.
    Well, I know that the review is also looking at any 
potential cyber vulnerabilities. I have had a chance to speak 
directly with Admiral Gilday about this from 10th Fleet, 
something that first came to mind when I heard of the incident. 
I hope that is not the case, but I also think that we are going 
to get to the bottom of the training issues.
    So I appreciate your due diligence on the review, and we 
are going to continue to focus on this as well.
    Thank you, and I yield back.
    Mr. Wilson. Thank you, Congressman Langevin.
    We now proceed to Congress Rodney Davis of Illinois.
    Mr. Davis of Illinois. Thank you, Mr. Chairman, and thanks 
to all the members, especially Chairman Wilson and Chairman 
Thornberry, for allowing a non-committee-member to be here 
today.
    And I really want to say a special thank you to the HASC 
[House Armed Services Committee] staff. They helped connect my 
office in a very difficult time for one of the families in my 
district after the loss of Petty Officer Logan Palmer, one of 
the sailors on the USS John S. McCain.
    That is why I am here today. I am here because I appreciate 
what my colleagues on this committee are doing to urge the Navy 
and urge our military to investigate what caused these tragic 
accidents and what caused the tragic accident that took the 
life of my constituent, Mr. Palmer. We are never going to 
forget the service that our sailors have provided, or their 
sacrifice. And we are praying for all their families and 
friends and also the shipmates during this difficult time.
    And it is up to us as Congress to allow you the opportunity 
and the resources to fully investigate why these accidents have 
occurred. I really, getting here at the end of the hearing, 
have been able to listen to so much and so many questions that 
I would have had, be it the issue on the possible cyber attack 
that my colleague from Missouri brought up, be it the 
sequestration issue and the funding issue that we in Congress 
need to do a better job of addressing so that our military, 
each and every one of you who are leading our young sailors, 
you have the resources that you need to not only investigate 
what happened but also to ensure that it never happens again to 
any of us and any of the families that have been affected.
    So we want to provide you those resources, and we want to 
do a better job on our end. But throughout this process--which 
was a first for me, to be so engaged with a family who lost one 
of our heros. And I want to ask you about what maybe you can 
do, as a military, to do a better job of serving those families 
during these difficult times.
    I didn't have the best experience working with the Navy. 
And, again, very appreciative of the HASC staff for their 
intervention. And the families didn't have the best experience. 
While the personnel was very good at getting answers, it just 
seemed like it took a lot longer than what I would have 
imagined. It was very bureaucratic. And just getting 
information on Logan took too much time, and it involved way 
too many people.
    What can be done or is actively being done to help the 
families have a better, more streamlined process when tragedies 
like this occur? Because, again, my first experience, the 
Palmers' first experience, while it was good, could have been a 
lot better.
    Admiral Moran. Sir, I don't think there is anything that 
anybody could have said today that would have made us feel any 
worse than to hear that a family member experienced something 
less than the sufficient amount of service that we owe those 
families. So I will take that on personally, and I promise you 
that we will fix whatever issues came up with the Palmer 
family. But I will tell you that we would all appreciate your 
personal involvement in helping get some of the information for 
the Palmers.
    We know we fell short on transportation issues. We know we 
fell short, in some cases, on announcing that missing sailors 
had been found before we got to the families. We know that the 
social media environment that we are in works inside of our 
ability to move information around to those who need it first.
    Our focus has always been, ever since both of these 
tragedies, has always been, first and foremost, the families. 
And we thought we were doing a pretty good job, but from time 
to time we didn't meet our own standard. And I am afraid to say 
the Palmers were one of them, and I regret that. I apologize 
for that.
    Mr. Davis of Illinois. Well, I appreciate your regret. I 
appreciate your willingness to work together. Let us help you 
make the steps even better. I don't want to see any family not 
get any answer. Granted, I know you got a lot of good people 
working this case.
    I will tell you, I was probably most concerned that an 
outside organization had to pay for the flights of the family 
to go see their son's body returned to Dover Air Force Base.
    Admiral Moran. It wasn't that they had to pay for it, 
Congressman; it was that we did not get the government to move 
as fast as we should have.
    Mr. Davis of Illinois. So the government does have a 
process then.
    Admiral Moran. Yes, sir, they do.
    Mr. Davis of Illinois. That is not a requirement, to go to 
an outside----
    Admiral Moran. No, sir, it is not.
    Mr. Davis of Illinois. So, yes, thank you for agreeing to 
do a better job to make sure those families, who may not live 
as close as others----
    Admiral Moran. Absolutely.
    Mr. Davis of Illinois [continuing]. So they have the 
opportunity to get to that point to see their loved one return 
for the sacrifice that that entire family has made. So I 
appreciate----
    Admiral Moran. And for them to be with the loved ones and 
crewmates of their fallen sons and husbands in the location 
where that crew is going to memorialize their falling. And we 
are doing that.
    Mr. Davis of Illinois. I appreciate your service, I 
appreciate your recognition of the issues, and I look forward 
to working with you.
    Admiral Moran. Thank you.
    Mr. Davis of Illinois. Thank you.
    I yield back.
    Mr. Wilson. And thank you, Congressman Davis, for your 
compassion for the family.
    And we now proceed to Congresswoman Elizabeth Esty of 
Connecticut.
    Ms. Esty. Thank you, Mr. Chairman.
    And, again, I want to thank the committee for their 
allowing my colleague Mr. Davis and I to join in today's 
proceedings.
    I, too, lost a constituent, Navy sonar technician third 
class Ngoc Truong Huynh, on the Fitzgerald. It was his 
birthday, and the family basically surmised by checking his 
Facebook feed, and when the responses to his birthday wishes 
stopped coming, they began to worry. And that is the era we 
live in now. That is the era we live in now.
    So my focus, also, as a member of the Veterans Committee, 
is thinking about what we owe those who serve. And so my focus 
is very much going to be on the human side, not so much the 
equipment but rather the human side, because much of what has 
been reported on today has to do with training, with 
leadership, and a culture of safety.
    And I say this as a daughter of a Navy man, who insisted on 
great discipline in our household. And it does make me think 
about what we can do better, as so many of my colleagues have 
said, that we owe it as Members of Congress to provide you with 
those resources. We need to ask you to say when we are asking 
too much with what you have and to be willing and able to say, 
``We cannot do what you are asking us to do without putting the 
lives of men and women at risk.'' And we need to know that from 
you. And I understand that is against your culture, but it is 
required because of the commitment these young people have made 
to this country.
    So that is unfair, that we put you in that position. And 
sequester and continued resolutions has made that worse. But it 
makes it all the more important that you stand up for them and 
for this country and for their safety. So that is one.
    I look at the safety culture and think about the importance 
of leadership from the top. These incidents, I note, seem to 
have occurred in the wee hours of the morning. I wonder if that 
is an overreliance on equipment and technology with very young 
sailors who may be concerned and not have the experience with 
how heavy the shipping lanes are.
    So I think the heaviness of the shipping lanes suggests we 
maybe need to do different training. But also a safety culture 
of, if you have any doubt whatsoever, anything that seems not 
right, you must immediately notify right up the chain of 
command. Do not worry that you are waking someone up. Do not 
worry that you have never seen this before and it is your 
second week on the job.
    So I think if you have a safety culture, that might empower 
our young sailors, and then go to the training of those young 
sailors. The notion that they are working hundred-hour 
workweeks is really terrifying for them and for us. And it 
makes me think about what happened in medicine when we looked 
at the death rates with new interns who are working in 
hospitals and working very long shifts. It got so bad that 
States began to pass laws prohibiting longer workweeks.
    So, again, I think that is something you need to look at, 
the capacity of people to operate under pressure with those 
kinds of hours. It is simply unfair to them, it is unsafe, and 
it is wrong. And we need to do our job with providing you the 
resources. But, again, we can learn from other areas, like 
medicine, where, again, you are talking about young people who 
are working very long hours and being given enormous 
responsibility. So I hope we can learn from ``The Checklist 
Manifesto'' and other areas which could help save lives here.
    So those were really kind of my thoughts about what we can 
do but also what we may all collectively need to do to protect 
the lives of these young people. And I think about this as the 
aunt of a nephew who is training to be a SEAL [Sea, Air, and 
Land teams] and is in process of that right now; of the young 
men and women who come to us, who we are honored, as colleagues 
have mentioned, to nominate to the academies, who hope to make 
their way to the ranks of commanding officers. And we owe it to 
all of them to do a better job.
    So I hope you heard from all of us, we are not looking to 
assign blame, but we are looking to correct this as rapidly as 
possible, and then to be honest with the American public about 
what those demands are and what resources are necessary to meet 
them.
    So, again, I want to thank you for your service, but it is 
urgent that we address this immediately. And we owe it to the 
families who are here today, the families who were unable to 
join, and the traumatized shipmates of those, and those who 
went back into those ships to try to retrieve their friends and 
their comrades.
    So, again, thank you very much. And, again, many thanks to 
the HASC committee for their hard work in assisting us, those 
of us who are not on the committee, in trying to do our jobs 
for our constituents.
    Thank you, and I yield back.
    Mr. Wilson. And, Congresswoman Esty, thank you very much 
for your positive comments and input today.
    Two brief questions from me, and then we will proceed to my 
other colleagues here, and then we will be concluding.
    But, Mr. Pendleton, how do you believe that you be will be 
able to determine when the services are achieving readiness 
recovery?
    Mr. Pendleton. Mr. Chairman, we are doing a broader body of 
work essentially monitoring the readiness recovery efforts. We 
made a series of recommendations in September of last year, 
basically saying that the Department of Defense needed a 
readiness rebuilding plan that matched the priority it was 
claiming that it had that said what the goals were and when 
they would be achieved and what it would take in terms of money 
and time, and that there needed to be agreement on it from the 
top.
    Because what we saw when we looked at it in depth was all 
the services were pursuing individual plans in zeal but not 
necessarily being pulled together in a departmentwide plan. So 
what we are looking for, is it clear what the goals are, and 
how are we doing against those goals?
    In the case of the Navy--Admiral Moran mentioned it--they 
had a glide path that got them to close to where they wanted to 
be at some point in the future that was classified. And our 
concern was the glide path didn't necessarily constitute exact 
goals. So, he mentioned earlier, this is going to knock them 
off the glide path.
    So being able to articulate the impacts of the decisions 
that you make if you continue with demands and that kind of 
thing, that that is the way we are going to look at, sir.
    Mr. Wilson. Well, again, thank you. And I just have to 
reiterate again how professional and independent your reports 
have been, and so helpful for Members of Congress and our 
military.
    And speaking of a plan, Admiral Moran, do you believe that 
we have an effective plan for readiness recovery, to erase the 
maintenance backlogs, to restore the manning shortfalls, to 
allow the Navy to meet the critical operational requirements, 
again, without risking the lives of our sailors?
    Admiral Moran. We do have a plan. We think it is an 
appropriate plan for recovering all the areas you just talked 
about--buying down the maintenance backlog, getting our 
manpower in the right place. We must have some stability in the 
budget so that we can follow through on those plans. If we are 
constantly changing it year after year, quarter to quarter, it 
makes it difficult to assess our baseline.
    So I think we have a much better understanding of what it 
is going to take to recover in CONUS than, clearly, we 
understand what it is going to take to recover in FDNF. And 
that is what we have to get after.
    Mr. Wilson. And with the accidents, is the technology 
available to maintain and determine the perimeter of vessels so 
this won't happen again?
    Admiral Moran. We have a lot of systems that do it, 
contribute to the information that is available to the team on 
the bridge and CIC [combat information center] and elsewhere. 
What we have to do is really examine--and Admiral Boxall has 
talked about this--the integration of those systems and do we 
have all of that information being provided to multiple sets of 
eyes on that bridge at any given time.
    Mr. Wilson. Well, that is so important for Navy and 
military families.
    Chairman Rob Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Admiral Boxall, I want to go back to you and get some 
definition about time versus resources.
    The Navy asked for a billion dollars to be reprogramed into 
maintenance and modernization accounts and now says that in 
2018 those accounts will be fully funded. We know what happens 
with a CR.
    But let me get to a more fundamental question, and that is 
time versus resources. Understanding those situations, are we 
in a situation of having the proper resources going forward to 
get all of the modernization and maintenance work done to make 
sure we have the full capability so that mission certifications 
can be gained on time? And do we have the time to do that?
    So I just want to get your perspective on time and 
resources and where you see it going forward to get to where we 
need to be, based on the inadequacies we see today.
    Admiral Boxall. Sure.
    Time is critical. I think you heard that over and over 
again today. If we don't have the time to train, we don't have 
the staff to maintain the ships to the level we need, then the 
maintenance goes longer, the time to train gets shorter, 
OPTEMPO goes up, and we get into this spiral that is not 
healthy.
    Having said all that, we also need to maintain a good path. 
I mean, those yard periods are for a reason. We are restoring 
that readiness. We have put a lot of capacity in there because 
we are trying to restore that readiness. Trying to do them both 
at the same time is having some of the effects of trimming that 
time available.
    So we need to be modernized as well. As we look at choices 
between readiness and force structure, a very key element of 
that is modernization. And year after year, we unfortunately 
have to make the difficult choice to delay modernization, which 
goes to our capability to stay up with the threats as we see 
them around the globe.
    I do worry about that, and that is something that we will 
continue to press forward as we continue to submit our budgets 
to restore readiness. It also includes that keeping up not just 
the capacity but the capability that is achieved through 
modernization.
    Mr. Wittman. Yeah.
    When you talk about capacity and capability, let me talk 
about it in a different sense, and that is in the yard capacity 
and capability.
    When we talk about time, time is an element for the Navy 
when you have the capacity in the yards to get the work done. 
Then it is a matter of managing where things go. But doesn't it 
get to a point where there is only so much capacity and 
capability in the yard, to where time is then not manageable by 
the Navy because you just don't have enough capacity to get the 
work done? And when that work stacks up, then there is no way 
that you can pipeline.
    And give me a perspective about where things are with the 
Navy, where we are today, and the capability and capacity in 
our yards.
    I am going to ask you in a larger perspective. I know that 
your OPNAV [Office of the Chief of Naval Operations] duties are 
there with the surface Navy.
    But, Admiral Moran, I will get you to pipe in too.
    That becomes a bigger issue when it comes to what we see 
with submarines and other ships in the force. It kind of 
cascades.
    But, Admiral Boxall, give me your perspective from the 
surface Navy standpoint. I will get Admiral Moran to add in the 
larger perspective of the Navy, because I do think it has some 
reverberations there with surface Navy work.
    Admiral Boxall. Absolutely, sir. As you know, all surface 
ship availabilities and maintenance are done in the private 
shipyards. They want stability, as you know, and to get 
stability you have to have the money there and the commitment 
to doing that maintenance and modernizations that we--so, right 
now, we are putting money into that, and we are seeing this 
kind of lagged response and delay in building the workforce, 
delay in having the available private shipyard workers, and, 
oh, yeah, the quality of the people in those shipyards. They 
are all competing for the same workers.
    So, as the workload goes up, good news story that we are 
restoring readiness. But we can't do it quickly enough, and we 
are going to get bogged down, which will put more pressure on 
those forces.
    I think that is what you were hopefully trying to get at.
    Mr. Wittman. Yeah, it was.
    And then, Admiral Moran, I wanted to get your perspective, 
because we are starting to see some of that reverberate over 
into ramping up there also with the public yards. And then 
there is a crossover, because the public yards and the private 
yards are competing for the same skilled workforce. So then, 
Admiral Boxall, that complicates your issue in getting 
throughput through the private yards.
    Admiral Moran. Yes, sir. It is a tough problem just in the 
talent that we have across the yards. But on the public side, 
it is the only place we can do nuclear work. So it is the only 
place you can----
    Mr. Wittman. Yeah.
    Admiral Moran [continuing]. Build and fix carriers, the 
only place for----
    Mr. Wittman. Uh-huh.
    Admiral Moran. Yes, sir. Go ahead.
    Mr. Wittman. And I think as far as the whole scope of this 
goes, one of the things we have seen both with the Secretary of 
the Navy's office and within the Navy is a roller-coaster ride 
on throughput of work. And if we have that roller-coaster ride, 
we won't be able to maintain capacity and capability to get the 
work done.
    So even if we do have the will and the resources and then 
we make the time for this to happen, if we don't have the 
workforce there or if we ask the workforce to spin up with 
thousands of workers and then spin down by sending them out, we 
are going to be in a very, very difficult situation.
    So I am hopeful that, as you all look at this, both in 
Admiral Davidson's view of what is going on, the internal 
review, as well as Secretary Spencer's review, that it also 
carries over into the courses of action to correct this and 
seeing what do we do to make sure that there is that capacity 
there that is sustainable in yards public and private.
    Admiral Moran. Yes, sir. That is a critical element of 
these reviews, no doubt.
    Mr. Wittman. Yeah. Very good.
    Let me end with one additional question for Rear Admiral 
Boxall.
    In each of the two collisions for Fitzgerald and John 
McCain, these were happening during routine operations. And 
what we see around the world today--and you all have alluded to 
that--that there are over 50,000 vessels transiting in the 
oceans every day. That is a lot of traffic out there. Even 
though the oceans are big, that is a lot of traffic. And as you 
point out, too, much of it is necked down into some critical 
areas--Tokyo shipping lanes, Straits of Malacca, Straits of 
Hormuz, all those areas where the Navy operates on a daily 
basis.
    What we see, too, is we have the ships that we interact 
with that are much less capable as far as the capability of 
their sensors, their situational awareness. Our warships, the 
best in the world, lots of sensors, lots of capability.
    Admiral Boxall, as you know, and going to your background, 
being the former Shiphandler of the Year there, Pacific Fleet, 
you have firsthand experience about what it takes to 
successfully handle a ship. Based on your experience, give me 
your perspective on where we need to go in training within that 
realm today and what we need to do to make sure we are 
developing the best mariners for our surface force.
    And I know you spoke a little bit about that, but I wanted 
to get your perspective, because you have been there, you had 
that experience, you were there on the bridge handling that 
ship, have been recognized for your skill in doing that. So you 
have a unique perspective.
    I just wanted to get you to share this as we kind of close 
things down. I know we are going to go to Mr. Courtney too, 
so----
    Admiral Boxall. Yes, sir. Honestly, when I have heard of 
these incidents, I was, frankly, shocked. I have observed a lot 
of strong professionalism in the folks that I have dealt with 
in my strike group tour, throughout the service. So I am not 
sure what that is going to find and what we are going to do and 
how we address those things.
    But to your question of how we get good at our mariner 
skills, we have to get back to basics. I mean, yes, we are 
warships with the best sensors and capabilities in the world. A 
lot of those aren't used for navigation. But yet our tools for 
navigation are good enough to do what we need to do. The 
question is, are we using them the best way we can?
    I know you are a fisherman in your past, and I know you 
spend a lot of time on the water, as I do. And I believe there 
is a fundamental skill that mariners, whether you are in a 
fishing boat, whether you are in a merchant vessel, or whether 
you are in a U.S. Navy warship--but we in U.S. Navy warships 
absolutely have to make that our core competency.
    I have had several discussions with Admiral Rowden, the 
Commander of Naval Surface Force, about this. He is as adamant 
as I am. I had command of a ship just like McCain, and every 
time I see the pictures of those sailors, I think of the ones 
that were with me. And I know we have a lot more to do.
    And so I am not sure where we go from here just yet. I 
would like to see what the teams find out. And then I am ready 
to go and roll up sleeves and go do whatever it takes, to 
include coming back here to ask you to maybe assist us, as we 
make any changes in those recommendations.
    Mr. Wittman. Well, listen, I appreciate that. I appreciate 
your perspective too. I know that you are extraordinarily well 
respected. A former employee in my office today, Commander 
Kevin Bosse, served under you, learned a lot, and is very 
complimentary of your experience there and how you pursued 
things.
    I know that you will use that experience in what we need to 
do collectively to make sure that we are gaining the correct 
and directed seamanship skills, navigating skills, with all of 
our officers and crew members onboard our surface fleet.
    With that, Mr. Chairman, I yield back.
    Mr. Wilson. Thank you very much, Chairman Rob Wittman.
    We now proceed to Ranking Member Joe Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    Again, I want to thank all the witnesses for your 
outstanding testimony here today.
    You know, I was thinking, having listened to the whole 
hearing, about Admiral Moran's first visit to this Congress 
back in January, where, again, there was a lot of excitement 
over the Force Structure Assessment and increasing the size of 
the fleet. And, again, I think our committee has gotten us off 
to a good start in terms of the NDAA.
    But your testimony was: Let's remember, first things first. 
We have to, you know, focus on the existing fleet to make sure 
that, you know, during that time that it takes to--with 
shipbuilding being such a long game, to get to these higher 
numbers, that we are still able to perform the missions of the 
Navy.
    And I think, again, those words really reverberate today in 
terms of just, you know, the discussion and the incidences that 
we are talking about, that, you know, focusing on what you told 
us to focus on is really critical to all of the goals that we 
are trying to achieve, which is to, you know, do what the Navy 
does in terms of its missions but also making sure that it gets 
done safely.
    And I guess, you know, Mr. Wilson asked the question about 
how do we get to that level of adequate readiness. And your 
comment about the fact that, you know, the forward-deployed 
forces is still really the tough one here in terms of just how 
do we, you know, achieve that. I think you said you had a 
pretty good vision or the Navy has a pretty good vision about 
how to do it with the ships that are based in the U.S.
    And, Mr. Pendleton, your graph on page 6 of the report, 
which, again, showed the difference between, you know, 
training, maintenance, and deployment and planned schedules 
for, you know, U.S.-based ships versus Japan, again, really 
vividly shows the sharp difference in terms of--and that sort 
of adds the degree of difficulty in terms of trying to solve 
this problem.
    So, in the meantime, the question which we have been 
talking about is, you know, who is the decisionmaker for the 
forward-deployed forces while we are trying to figure this out? 
And I know that is probably going to be part of the Davidson 
study, in terms of just trying to get the lines of decision 
making clear, but one last time: Who decides, you know, for the 
forward-deployed fleet in terms of man, train, and equip 
decisions and, you know, the final decision to send these ships 
to sea? Is it the operational admiral, or is it the forces 
commander?
    Admiral Moran. Yeah. Understandably, Congressman, this is 
not simple. And I think when we talk about man, train, and 
equip, there are many people that are responsible for that. It 
works its way all the way through the surface force, for 
example, when we talk surface ships. Obviously, the carrier has 
components of aviation, so on and so forth. So there are many 
places and people that are responsible for adequately 
resourcing the manning, training, and equipping.
    The operational tempo, the operations and how often those 
ships and what types of missions they are going on and how to 
prioritize the training that they do get, or that they are 
required to get, for those missions, is clearly the local 
operational commanders in Japan.
    The model, though, the model that you reflect here on page 
6, is a big Navy discussion. So the CNO and I and the four-star 
fleet commanders have got to look at what Admiral Davidson's 
review finds. Is the model out of alignment for what we have 
asked them to do? And, going forward, do we need to make 
adjustments? That will be title 10, [section] 1, if you will, 
responsibility to make those course corrections based on the 
recommendations.
    In the interim period, Admiral Swift is going after this to 
make sure, as we go through the review, he has a deeper 
understanding and will adjust where he needs to adjust to lower 
the tension, if you will, between that OPTEMPO and the 
maintenance/training aspects of what he is doing out in Japan.
    Mr. Courtney. I think that answer sheds more light in terms 
of the question.
    And, again, I thought your answer to Chairman Thornberry 
about the fact that, you know, the Navy made a tough call in 
terms of the carrier deployments, but, again, it was just 
driven by external forces, you know, that we had to set up a 
schedule and stick to it. And I think that answering the 
question that you just did and Admiral Davidson's report is 
going to help us sort of make sure that we are just not biting 
off more than we can chew.
    And I think it kind of screams out from the report from GAO 
that that is something that we have to understand, that, you 
know, a 100-hours-a-week deployment has--you know, there has to 
be a way to decide when to rebalance.
    Thank you, Mr. Chairman. I yield back.
    Mr. Wilson. And thank you very much, Ranking Member Joe 
Courtney.
    And we want to thank all of our witnesses for your being 
here but, also, in particular, for your service to the American 
people to protect American families.
    Also, it is an opportunity for us to thank the professional 
staff who have been here and have been so helpful. The Armed 
Services Committee is just blessed with remarkable people. And 
we are particularly blessed with Margaret Dean, because not 
only is she a professional staff member but she was a very 
appreciated member of the Navy Reserve.
    So, at this time, we shall adjourn.
    [Whereupon, at 5:55 p.m., the subcommittees were 
adjourned.]

     
=======================================================================


                            A P P E N D I X

                           September 7, 2017

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 7, 2017

=======================================================================

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           September 7, 2017

=======================================================================

      

              RESPONSE TO QUESTION SUBMITTED BY MR. HUNTER

    Admiral Moran. Commander Naval Surface Forces (CNSF) is currently 
evaluating the plan to replace these assets and ensure long-term multi 
mission capability across the Fleet. In the interim, GFM allocation 
will ensure we maintain the same capability and meet operational 
requirements within the Seventh Fleet AOR. The long term laydown of 
FDNF-J forces will be incorporated into the 2018 Strategic Laydown and 
Dispersal Plan (SLD 18). SLD18 is currently in development and is 
expected to be presented to Congress in March 2018.   [See page 27.]
                                 ______
                                 
            RESPONSE TO QUESTION SUBMITTED BY MR. GALLAGHER
    Admiral Moran. In recent years, the Navy's ability to meet COCOM 
demand has fluctuated between 40% and 45% of their requests for naval 
forces. For FY18, Navy will meet 44% of COCOM demand. While COCOM 
demands fluctuate from year to year, both overall and for class of 
ship, the trend over the last few years has been an increasing one. The 
Navy's 2016 Force Structure Assessment determined a requirement for 355 
ships, when measured with today's platforms, as an acceptable level of 
risk. A larger fleet would be needed in order to fully meet all COCOM 
demands.   [See page 39.]
                                 ______
                                 
            RESPONSE TO QUESTIONS SUBMITTED BY MR. NORCROSS
    Admiral Moran. In the immediate aftermath of the collisions, the 
CNO directed the Navy to take an ``operational pause'' in all of its 
fleets around the world, to allow fleet commanders to assess and review 
with their commands the fundamental practice of safe and effective 
operations and to correct any areas that require immediate attention. 
This pause has been completed, with commanders incorporating deliberate 
processes in their operations to better manage risk. The following 
immediate actions are being undertaken to prevent another mishap.We 
have commenced Readiness for Sea Assessments (RFSA) for all ship 
assigned to Japan, to inspect and assess watchstander proficiency and 
material readiness to ensure ships are able to safely navigate, 
communicate and operate. Immediate remediation will be conducted for 
ships found deficient, and they will not be assigned for operational 
tasking until they are certified to be ready.
    <bullet>  We have taken measures to ensure our Sailors get 
sufficient sleep in all shipboard routines to address fatigue concerns.
    <bullet>  All material problems involving ship control have been 
given increased priority for repair.
    <bullet>  To ensure SEVENTH Fleet ships are properly certified, the 
Pacific Fleet Commander is standing up Naval Surface Group Western 
Pacific (NSGWP) to consolidate authorities to oversee the training and 
certification of forward-deployed ships based in Japan.
    <bullet>  We have commenced a review of certifications of each 
ship, to include developing a plan for each to regain currency and 
proficiency across all certification areas. All waivers for ships whose 
certification has expired will now be approved by the Pacific Fleet 
Commander.
    <bullet>  We have increased focus across the force on open 
communication and thorough debriefing and assessment of operations and 
evolutions through instilling the practice of ``Plan, Brief, Execute, 
Debrief'' across commands. Other cultural changes include increasing 
unit-level operational pauses, increasing access to lessons learned, 
and encouraging time for repercussion free self-assessments.
  [See page 29.]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 7, 2017

=======================================================================

   
      

                   QUESTIONS SUBMITTED BY MR. WILSON

    Mr. Wilson. Admiral Boxall, I understand that the U.S. Navy is 
developing advanced radar capabilities under a research, development, 
test, and evaluation program called ``Next Generation Surface Search 
Radar''. Such advanced capabilities would improve situational awareness 
for piloting and surface contact management, as well as for combat 
operations. As the Navy, the Committee on Armed Services in the House 
of Representatives, and other entities strive to address training and 
other requirements highlighted by the recent catastrophic collisions, 
it's equally important that we provide our sailors and Marines with the 
best available radar technology to reduce watch team workload and the 
likelihood of human error; they need to be equipped with more 
integrated radar, navigation, and contact information for better 
situational awareness and decision-making. Therefore, please share with 
us the status of this Next Generation Surface Search Radar RDT&E 
program, including but not limited to considerations regarding future 
RDT&E requirements and funding. In addition, how will the Navy use this 
program to address radar upgrade requirements going forward? Please 
describe the U.S. Navy's acquisition approach to this capability, as 
well as the status of any plans to field this capability within the 
surface fleet.
    Admiral Boxall. The AN/SPS-73(X) Next Generation Surface Search 
Radar (NGSSR) upgrade leverages RDT&E work performed for a classified 
shore based system, as well as previous investments in Small Business 
Innovative Research (SBIR) technology for both the AN/SPS-74 periscope 
detection radar and AN/BPS-17 submarine navigation radar. The AN/SPS-
73(X) NGSSR will update eighty-one AN/SPS-73(V)12 and sixty-seven AN/
SPS-73A(V)12 systems to provide situational awareness and contact 
management, supporting ship self-defense, gun fire support, periscope 
detection and discrimination, remotely operated vehicle management, 
navigation, search and rescue, and electromagnetic maneuverability 
evolutions. Eliminating reliance on militarized commercial off the 
shelf transmitters, the NGSSR will be an all-digital multi-function 
high resolution radar with a solid state transmitter, which includes 
Automated Radar Plotting Aids (ARPA), fully programmable waveforms, and 
performance improvements over AN/SPS-73(V)12 and A(V)12, AN/SPS-67(V) 
variants and commercial navigation radars. The NGSSR acquisition 
approach (Items Less Than $5 Million; BLI 2980) leverages existing SBIR 
contracts with Ultra/3 Phoenix, Wake Forrest, NC, for NRE and follow-on 
initial production. PB18 includes funding for the procurement of 3 
upgrade kits for qualification testing (land based, shock, vibration, 
environmental, etc.) in FY19. In FY20, 12 production kits are planned 
to be procured for initial shipboard installation beginning in FY21. 
The initial units will support new construction installations as well 
as start to replace AN/SPS-73(V)12/(A)(V)12 systems on in-service 
surface combatants. PB18 supports continued procurement and 
installation of NGSSR throughout the FYDP.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. COURTNEY
    Mr. Courtney. Can you please provide us the total number of 
certifications that were expired on the USS Fitzgerald and USS McCain 
and what those specific certifications were?
    Admiral Moran. USS Fitzgerald: At the time of the collision, 
expired certifications (14) included: Communications, Mobility-Air, 
Mobility-Engineering, Mobility-Seamanship, Supply, Air Warfare, 
Ballistic Missile Defense, Cryptology, Electronic Warfare, 
Intelligence, Strike-Cruise Missile Tactical Qualification (CMTQ), 
Strike-Naval Surface Fire Support (NSFS), Surface Warfare, Undersea 
Warfare, Visit Board Search and Seizure. USS John S. McCain: At the 
time of the collision, expired certifications (10) included: 
Maintenance and Material Management (3M), Anti-terrorism, Fleet 
Support-Medical, Search and Rescue, Air Warfare, Strike-CMTQ, Strike-
NSFS, Surface Warfare, Undersea Warfare, Visit Board Search and 
Seizure.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. McEACHIN
    Mr. McEachin. How much discretion do current policies afford 
individual ship commanders with respect to the kind of choices that may 
have contributed to the recent collisions? Are there best practices 
that are implemented on certain vessels, but not widely--for instance, 
requirements that watch bills reflect a) the biological reality of 
sailors' circadian rhythms, and b) fact that human beings work best 
with the benefit of consistent sleep schedules?
    Admiral Boxall. The Navy recognizes that its sailors, the men and 
women who crew our ships, are the critical enabler to warfighting. 
Ensuring they are healthy, fit and rested will make them more 
productive and effective during training and in combat. Over the past 
three years, (starting in May 13) CNSF promulgated guidance on 
Circadian Rhythm (CR) Watchbills intended to encourage the 
implementation of innovative shipboard watch rotations and daily 
routines that maximize the effectiveness of our watchstanders. In Jun 
2016, CNSF promulgated Warfighting Serial Ten, focusing on 
warfighting--our people: ensuring they are healthy, fit and rested. 
CNSF has sponsored a series of interrelated studies on crew endurance 
and Sailor resilience undertaken by the Naval Postgraduate School (NPS) 
which are receiving widespread attention throughout the Fleet. Since 
CNSF began promoting circadian rhythm in 2013, commanding officers have 
had the latitude to determine the most effective watchbills and 
shipboard routines to employ onboard their ships--circadian rhythm was 
a best practice shared with waterfront leaders and strongly encouraged. 
In the spring of 2017, CNSF queried the surface force regarding fatigue 
management, sleep and resilience and circadian rhythm watchbills to get 
feedback on how CNSF could help with fatigue management. The large 
majority of responses agreed that circadian rhythm was the best way to 
combat fatigue. Lessons were collected and shared. CNSF's recent 
circadian rhythm direction, informed by NPS studies and fleet feedback, 
is an order and will be implemented by 20 Dec 2017. However, commanding 
officers have flexibility in how they execute circadian rhythm. 
Additionally, CNSF, working with NPS, is providing tools to the fleet 
to train leaders and Sailors on how to properly implement circadian 
rhythm best practices on their ships. The proper use of these shipboard 
routines and watchbills will provide watchstanders with a repetitive 
watch schedule that allows the body to establish a sleep pattern 
resulting in adequate rest and greater alertness on watch.
    Mr. McEachin. How much discretion do current policies afford 
individual ship commanders with respect to the kind of choices that may 
have contributed to the recent collisions? Are there best practices 
that are implemented on certain vessels, but not widely--for instance, 
requirements that watch bills reflect a) the biological reality of 
sailors' circadian rhythms, and b) fact that human beings work best 
with the benefit of consistent sleep schedules?
    Admiral Moran. The Navy recognizes that its sailors, the men and 
women who crew our ships, are the critical enabler to warfighting. 
Ensuring they are healthy, fit and rested will make them more 
productive and effective during training and in combat. Over the past 
three years, (starting in May 13) CNSF promulgated guidance on 
Circadian Rhythm (CR) Watchbills intended to encourage the 
implementation of innovative shipboard watch rotations and daily 
routines that maximize the effectiveness of our watchstanders. In Jun 
2016, CNSF promulgated Warfighting Serial Ten, focusing on 
warfighting--our people: ensuring they are healthy, fit and rested. 
CNSF has sponsored a series of interrelated studies on crew endurance 
and Sailor resilience undertaken by the Naval Postgraduate School (NPS) 
which are receiving widespread attention throughout the Fleet. Since 
CNSF began promoting circadian rhythm in 2013, commanding officers have 
had the latitude to determine the most effective watchbills and 
shipboard routines to employ onboard their ships--circadian rhythm was 
a best practice shared with waterfront leaders and strongly encouraged. 
In the spring of 2017, CNSF queried the surface force regarding fatigue 
management, sleep and resilience and circadian rhythm watchbills to get 
feedback on how CNSF could help with fatigue management. The large 
majority of responses agreed that circadian rhythm was the best way to 
combat fatigue. Lessons were collected and shared. CNSF's recent 
circadian rhythm direction, informed by NPS studies and fleet feedback, 
is an order and will be implemented by 20 Dec 2017. However, commanding 
officers have flexibility in how they execute circadian rhythm. 
Additionally, CNSF, working with NPS, is providing tools to the fleet 
to train leaders and Sailors on how to properly implement circadian 
rhythm best practices on their ships. The proper use of these shipboard 
routines and watchbills will provide watchstanders with a repetitive 
watch schedule that allows the body to establish a sleep pattern 
resulting in adequate rest and greater alertness on watch.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
